<html>
<title> - EXAMINING THE CASE FOR THE CALIFORNIA WAIVER: AN UPDATE FROM EPA</title>
<body><pre>[Senate Hearing 110-1108]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1108
 
    EXAMINING THE CASE FOR THE CALIFORNIA WAIVER: AN UPDATE FROM EPA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
61-979                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 26, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     6
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7

                               WITNESSES

Nelson, Hon. Bill, U.S. Senator from the State of Florida........    13
Johnson, Hon. Stephen L., Administrator, U.S. Environmental 
  Protection Agency..............................................    17
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Boxer............................................    20
        Senator Cardin...........................................    24

                          ADDITIONAL MATERIAL

Reports:
    NERA/Sierra/AIR, Effectiveness of the California Light Duty 
      Vehicle Regulations as Compared to Federal Regulations, 
      June 15, 2007..............................................49-169
    Ronald F. Kirby, Director of Transportation Planning, 
      National Capital Regional Transportation Planning Board, 
      Metropolitan Washington Council of Governments, June 27, 
      2007, CO<INF>2</INF> Emissions from Cars, Trucks & Buses in 
      the Metropolitan Washington Region........................170-188
Chart, Annual Temperature California.............................    10
Article, University Wire, July 23, 2007, Calif. Health Services 
  Releases Study of 2006 Heat Wave Fatalities, by Geoff Johnson, 
  The California Aggie; Source: UC-Davis.........................    11
Letters from:
    Charlie Crist, Governor of Florida, July 25, 2007............    15
    Jenny S.K. Rockwell, June 11, 2007, Sacramento, CA...........    28
    Sarah Schoenbach, NRDC, June 6, 2007, Santa Monica, CA.......    29


    EXAMINING THE CASE FOR THE CALIFORNIA WAIVER: AN UPDATE FROM EPA

                              ----------                              


                        THURSDAY, JULY 26, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Cardin, Carper, Inhofe and 
Lautenberg.
    Also present, Senator Nelson of Florida.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order. Welcome, 
everybody who is here today.
    Today, we will hear about the EPA's crucial upcoming 
decision regarding whether to grant California a waiver that 
will free California and 12 other States to take important 
steps to reduce global warming pollution from vehicles. 
California submitted its waiver request over 20 months ago, but 
EPA dragged its feet and refused to act on it until the Supreme 
Court of the United States decided that the Clean Air Act 
authorizes greenhouse gas regulation.
    On April 2 of this year, the Supreme Court handed down its 
decision. In Massachusetts v. EPA the Court ruled that 
greenhouse gases are clearly air pollutants under the Clean Air 
Act and it rejected EPA's excuses for not regulating vehicle 
greenhouse gas emissions under the Clean Air Act.
    Later in April, I called upon Mr. Johnson to testify about 
he would respond to the Supreme Court's decision. I urged him 
to move quickly on California's waiver request for its 
greenhouse gas standards so that California could begin to 
reduce global warming pollution from passenger vehicles and all 
those other States that are working with California.
    I also encouraged Mr. Johnson to take other actions under 
the Clean Air Act to help make up for precious lost time in 
responding to the challenge of global warming. We all know the 
longer we wait, the harder it gets. Unfortunately, Mr. Johnson 
repeatedly said that these issues are ``complex'' and need much 
further study. So I invited him back for a progress report so 
we can be assured that he is in fact moving, ``expeditiously'' 
as he promised us he would in April.
    But in the meantime, there have been several developments 
that cast doubt on this Administration's seriousness about 
getting on with the crucial business of combating global 
warming. First, Administrator Johnson has announced that he 
will not make a decision on California's request until December 
of this year. It is inexcusable that the Agency plans to wait 
until December, a total of 2 years, 2 years to decide this 
waiver request.
    In 30 years, EPA has granted over 50 waiver requests and 
has never denied California the ability to put an emissions 
standard in place. Deciding this latest waiver request should 
not take so long. That is why I have joined with Senator Nelson 
and several of our colleagues--that is Bill Nelson, including 
on this committee Senators Lautenberg, Cardin, Sanders and 
Whitehouse, to introduce legislation to require EPA to make its 
decision by September 30.
    I am also very troubled that top officials at the 
Department of Transportation, with the help of the auto 
industry, lobbied Members of Congress and Governors to oppose 
California's waiver request. Even the Secretary of 
Transportation was part of this unprecedented use of taxpayer 
dollars to tilt the scales of another Agency's decisionmaking 
process, even before public comments were considered.
    It appears that at least some parts of the Administration 
have already decided against granting the waiver, raising the 
question of whether California's request will get a fair and 
just objective hearing on its merits.
    The President has directed EPA and other Federal agencies 
to implement through regulation a plan on greenhouse gas 
emissions. A close look at President Bush's initial plans to 
reduce gas consumption by 20 percent in the next 10 years could 
actually allow heavy use of greenhouse gas-spewing fuels to 
substitute for gasoline, undermining efforts to reduce our 
global warming pollution.
    I am concerned that weak proposals under this Executive 
order will be released later this year and will be used as a 
poor excuse for denying the California waiver. I am proud of my 
State and the other 12 States for the leadership they have 
shown in addressing the pressing problem of global warming. As 
a result of that leadership, 13 States stand poised to reduce 
greenhouse gas emissions from over 30 percent of the vehicles 
sold in this country. Those States are Connecticut, Florida, 
Maine, Maryland, Massachusetts, New Jersey, New York, Oregon, 
Pennsylvania, Rhode Island, Vermont and Washington.
    This Administration's longstanding policy against taking 
regulatory action to reduce global warming pollution should not 
be allowed to stand in the way of the leadership of these 
States. Because of California's tradition of leadership in 
controlling vehicle emissions, we believe this waiver should be 
granted.
    EPA and this Administration should respect that role and 
allow California and these States to once again lead the 
country in reducing vehicle pollution, in this case, pollution 
that threatens the planet itself. That way we can take 
important steps to protecting the future of our children and 
our grandchildren from the serious threats posed by global 
warming.
    I look forward to hearing from Administrator Johnson. I 
hope he has some better news for us this time.
    I am also so pleased that our good friend and colleague 
from Florida, Senator Nelson, is here to tell us about S. 1785, 
the bill we introduced to set a deadline for EPA's decision on 
the California waiver. He will also tell us about his State's 
recent announcement about an exciting program to reduce 
greenhouse gases in Florida. He pointed out to me this morning, 
but I had already seen it, that we have a letter from Florida 
Governor Crist in support of our bill to require EPA to make a 
decision on the waiver by September 30.
    If ever there was a bipartisan issue, Senators, this is the 
issue. This is the letter we received from a Republican 
Governor we all know. My Republican Governor is with us. So why 
don't we just join hands across the aisle finally here in the 
Senate and get things done. It is very, very important.
    So we will have our opening statements and then we will 
turn to Senator Nelson.
    Senator Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Frankly, I am disturbed that we are having this hearing 
today. It was just 2 months ago that we had a hearing on this, 
and shortly before that Administrator Johnson told Members of 
the committee that EPA would conduct a thorough process to make 
a decision in an expeditious and timely manner. The EPA has met 
this commitment so far and there is no indication that it will 
not continue to do so.
    In making a decision of this magnitude, it would be 
improper for the EPA not to involve the public and formally 
solicit notice and comment. It has done so. The EPA intended to 
close the public comment period on June 15 and they closed it 
on June 15.
    The EPA has received more than 30,000 comments. While some 
of these are what I call, and what I think everyone would agree 
at this table, ``postcard'' comments that provide us no 
information of any value other than knowing how effective 
special interests are in their fundraising efforts. Many are 
very technical and very substantive.
    EPA needs to read them, assess them, compare them. It needs 
to investigate the issues raised by California thoroughly, 
analyze each and every document California relies upon, review 
supporting comments that may add new information California did 
not include, examine each argument raised in opposition to 
granting the waiver, determine the most relevant arguments and 
points that need to be taken into account in making the final 
decision, and determine the ramifications of a decision. And 
then and only then, EPA needs to make a decision.
    Now, it has been just over a month since the comment period 
closed, 1 month. With what the EPA must go through, I would be 
highly disturbed if the EPA said that is planned to make a 
decision before the end of the year. Rushing this process is 
unacceptable. In fact, it would be arbitrary and capricious in 
law and in fact.
    Mr. Administrator, I expect you to fully deliberate this 
important issue so that all the facts and considerations are 
taken into account.
    I am having trouble understanding the need for this waiver. 
One of the prerequisites for granting this waiver is that it is 
needed in California to meet compelling and extraordinary 
conditions. Among the problems California listed that would 
occur from global warming are the higher temperatures will 
bring increases in heat waves, droughts, forest fires, flooding 
and smog and harm to the State's water supplies and agriculture 
productivity.
    There is one small problem with that, and that is 
California is not experiencing global warming. The State is 
experiencing global cooling. In fact, the temperatures in 
California are lower today than the average temperatures since 
the beginning of the 20th century. The chart here speaks for 
itself. The California temperatures over the last two decades, 
as you can see, temperatures have trended downward at 0.12 F. 
If this were to continue through the remainder of this century, 
California's temperatures would decline by more than 1 F.
    Exactly where is the harm that is compelling and 
extraordinary? California's actual temperatures may 
inconveniently vary from the models, but if the models show 
California should have warmed and in fact it has been cooling, 
shouldn't we view these estimates of future warming with 
somewhat of a jaundiced eye?
    A bill has been introduced that would force you, Mr. 
Administrator, to approve or disapprove the waiver request 
within 30 days. I assume supporters hope EPA will rubberstamp 
all future requests on the basis that EPA has not denied a 
waiver before. Two major reasons for this are the California 
standard has always been confined to addressing local problems 
and has been more protective than Federal standards. But this 
is not a local issue. It is a global one. California has shown 
no harm. As this chart I have shown you demonstrates--this same 
chart, chart one, if anything, California is experiencing a 
cooling and not warming.
    Also, unlike past waivers, it appears this time 
California's waiver request would not result in more protective 
standards. I ask that this report by NERA, and I have copy of 
it right here, the economic consulting company, be placed in 
the record. It concludes California's light duty vehicle 
regulations are less protective than Federal regulations.
    Now, if that is the case, Mr. Administrator, you cannot 
grant this waiver. If serious economic modeling finds that this 
is the case, you had better have a far more detailed economic 
modeling with far different conclusions before you grant a 
waiver. In fact, I believe that if the legislation were to 
pass, you would be compelled to deny the waiver.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Madame Chairman, I am disturbed that we are having this hearing 
today. Just two months ago, we had a hearing on this. And shortly 
before that, Administrator Johnson told Members of the committee that 
EPA would conduct a thorough process to make a decision in an 
expeditious and timely manner. EPA has met this commitment so far and 
there is no indication that it will not continue to do so.
    In making a decision of this magnitude, it would be improper for 
EPA not to involve the public and formally solicit notice and comment. 
It has done so. EPA intended to close the public comment period on June 
15th. It did so.
    EPA has received more than 30,000 comments. While some of these are 
what I call ``postcard comments'' that provide us no information of any 
value other than knowing how effective special interests are in their 
fundraising efforts, many are very technical and very substantive. EPA 
needs to read them, assess them, and compare them. It needs to: 
investigate the issues raised by California thoroughly; analyze each 
and every document California relies upon; review supporting comments 
that may add new information California did not include; examine each 
argument raised in opposition to granting the waiver; determine the 
most relevant arguments and points that need to be taken into account 
in making the final decision; determine the ramifications of its 
decision; and then--and only then--EPA needs to make a decision.
    It has been just over a month since the comment period closed. One 
month, Madame Chairman! With what the EPA must go through, I would be 
highly disturbed if EPA said that it planned to make a decision before 
the end of the year. Rushing this process is unacceptable. In fact, it 
would be arbitrary and capricious--in law and in fact. Mr. 
Administrator, I expect you to fully deliberate this important issue so 
that all the facts and considerations are taken into account.
    I'm having trouble understanding the need for this waiver. One of 
the prerequisites for granting this waiver is that it is needed in 
California to meet ``compelling and extraordinary conditions.''
    Among the problems California listed that would occur from global 
warming are that higher temperatures will bring increases in heat 
waves, droughts, forest fires, flooding and smog, and harm to the 
State's water supplies and agricultural productivity.
    There is one small problem with all of that--California is not 
experiencing global warming; the State is experiencing global cooling. 
In fact, temperatures in California are lower today than average 
temperatures since the beginning of the 20th Century.
    I want to draw your attention to this chart of California's 
temperatures over the last two decades. As you can see, temperatures 
have trended downward at 0.12 F. If this were to continue through the 
remainder of this Century, California's temperatures would decline by 
more than 1 F.
    Exactly where is the harm that is compelling and extraordinary? 
California's actual temperatures may inconveniently vary from the 
models, but if the models show California should have warmed, and in 
fact it has been cooling, shouldn't we view these estimates of future 
warming with somewhat of a jaundiced eye.
    A bill has been introduced that would force you, Mr. Administrator, 
to approve or disapprove a waiver request within 30 days. I assume 
supporters hope EPA will rubber-stamp all future requests on the basis 
that EPA has not denied a waiver before. Two major reasons for this are 
that California's standard has always been confined to addressing local 
problems and has been more protective than federal standards.
    But this is not a local issue, it is a global one and California 
has shown no harm. As this chart I've showed you demonstrates, if 
anything California is experiencing cooling, not warming.
    Also, unlike past waivers, it appears this time California's waiver 
request would not result in more protective standards. I ask that this 
report by NERA economic consulting be placed in the record. It 
concludes California's light duty vehicle regulations are less 
protective than federal regulations. If that is the case, Mr. 
Administrator, you cannot grant this waiver. And if serious economic 
modeling finds this is the case, you had better have far more detailed 
economic modeling with far different conclusions before you were to 
grant a waiver.
    In fact, I believe that if the legislation were to pass, you would 
be compelled to deny the waiver.
    Thank you.

    Senator Boxer. Thank you very much.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for holding 
another hearing on EPA's failure to act to protect the 
environment.
    Three months ago, Mr. Johnson, Administrator Johnson, told 
this committee that, ``the Administration has been taking steps 
to tackle climate change.'' He also told us that he couldn't 
comment on the process for granting California a waiver to 
implement the standard which calls for new cars to emit 30 
percent fewer greenhouse gases by 2016.
    The waiver is critical as cars, trucks and buses account 
for one-third of all the greenhouse gas emissions in the United 
States. Those emissions are directly responsible for global 
warming.
    Regarding the waiver process, Administrator Johnson told 
this committee, ``I must be mindful that the appropriate 
process is followed, which requires that I not prejudge any 
determinations.'' Unfortunately, pre-judging seems to be 
happening. It is exactly what others in the Bush administration 
are doing.
    Last month, the Department of Transportation contacted 
congressional offices urging them to weigh in against granting 
California the Pailey waiver. In the face of Mr. Johnson's 
promise of an unbiased process, such an action by another 
executive agency is alarming. This Pailey waiver is important 
to California, to my State and to other States who want to 
follow the standard to conserve our environment and protect our 
health.
    One estimate predicts that if all the States waiting to 
adopt the Pailey standard were today given a waiver to adopt 
it, they could reduce emissions by at least 64 million metric 
tons of carbon dioxide by 2020. Now, those kinds of numbers 
don't usually register, but when we talk about it, that is the 
equivalent of approximately 12 million cars off the road.
    California, New Jersey and 11 other States have been forced 
to wait for the EPA to grant this waiver to begin cutting 
emissions from their vehicles. The EPA has granted these kinds 
of waivers more than 40 times in the past, and here it has 
taken more than 18 months to consider this one. The environment 
cannot wait any longer. The people in the country don't want to 
wait any longer. Every day that EPA prevents States like 
California, New Jersey and the others from reducing emissions 
is a day that costs future generations clean air and a healthy 
environment.
    The EPA needs to act and act now. We have a continuing 
debate here about whether or not reality is in front of us, but 
we need a reminder that the year 2006 was 2.2 F higher on 
average than any State before this. That is an ominous sign.
    I look forward to Administrator Johnson's testimony and how 
he intends to expedite the Pailey process for the sake of the 
environment that his Agency is supposed to protect.
    Madam Chairman, thank you. It is well that we are having 
this hearing right now. We are going to move the process along, 
we hope. Administrator Johnson, we will be asking you some 
questions. You might have expected that.
    Thank you.
    Senator Boxer. Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chairman.
    Senator, I am going to just say I look forward to 
Administrator Johnson's testimony, but first I look forward to 
the testimony of Senator Bill Nelson of Florida. We thank him 
for joining us. I hope he is ready for the rigorous questions 
we are going to throw his way as we prepare to grill him on 
this day.
    Putting that aside though for just a moment, like my 
colleagues I look forward to hearing from the Administrator 
what he has to say in response to the request from the Governor 
of California on behalf of the people of California.
    I also look forward to hearing what you have to say in 
response to the Supreme Court decision authorizing EPA to go to 
work on CO<INF>2</INF> emissions with respect to mobile 
sources.
    Finally, I look forward to any comments--and this is what 
we call ``telegraphing'' our pitch in Delaware--but I look 
forward to your latest thoughts on responding more fully to the 
letter I sent you on May 10 suggesting three specific steps 
that EPA could take to inform your decisionmaking as you 
contemplate the best methods for reducing greenhouse gases.
    The first suggestion was to encourage EPA to develop a 
mandatory inventory and registry of major greenhouse gas 
sources in the United States. The second point that we made is 
just the thought that I felt was imperative, and I still feel 
it is imperative for EPA to do more to help us to deploy clean 
coal technology by developing health and safety standards for 
geological sequestration.
    The third point was to encourage EPA to develop standards 
and practices on how best to estimate, how best to measure, and 
how best to verify emission offsets for biological and 
agricultural sector sequestration.
    On those three points, we have gotten a response, but to be 
honest with you, not the kind of response that I would have 
hoped for. I look forward to any further comments that you have 
to share with us today.
    Thank you.
    Senator Lautenberg. Madam Chairman, if I may apologize. I 
was reminded by my friend from Delaware that Senator Nelson was 
there. We are assured that his testimony is going to be 
agreeable. That is the only reason is so focused on Mr. 
Johnson.
    Thank you.
    Senator Boxer. I don't think there is much of a shock with 
that. I think we do agree with that.
    Senator Cardin.

OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, I also thank you for convening 
this hearing.
    I thank Senator Nelson for being here. It is a pleasure to 
have him testify before our committee. I am a strong supporter 
of your legislation that would set a deadline for the EPA 
acting on this waiver. I regret that that legislation is 
needed. We had a hearing here last May when the Administrator 
was present and sort of questioned as to how much additional 
time is needed before acting on the waiver. At that time, we 
suggested 60 days that we thought was reasonable, which means 
that the waiver would have been acted on by July 1, but it 
wasn't. I am disappointed by that.
    The people of the State of California have been waiting 
since December 21, 2005 when they first moved forward with this 
application. So it has been a long time. It is time for the EPA 
to act on this. I have a special interest because the State of 
Maryland, like other States, joined California and is seeking 
this ability to act responsibly as it relates to emissions.
    So we are very much interested in getting this issue moving 
along. A new study just completed by the National Capital 
Region Transportation Planning Board demonstrates vividly the 
value of the California waiver. The report shows that the 
waiver could cut projected levels of carbon dioxide by more 
than four tons in the region by 2020, and nearly six tons by 
2030. I ask, Madam Chairman, that the full presentation from 
the Transportation Planning Board be included as part of the 
hearing record today.
    Senator Boxer. Without objection, so ordered.
    [The referenced information can be found on page 170.]
    Senator Cardin. This one action, simply granting the 
request that will allow States to tackle the problem that the 
EPA and this Administration seem so willing to ignore, can 
result in tons of pollution reductions. EPA's failure to act 
will result in tons of additional greenhouse gases polluting 
the region. That is unacceptable to me and to the people of the 
Washington Metropolitan Area, and certainly should be 
unacceptable to EPA.
    In my State, mobile sources are the leading causes of smog 
and one of the leading causes of greenhouse gas emissions. We 
have some of the worst smog in the Nation during the Code Red 
days. More than 70 percent of the pollution comes from cars and 
light trucks. Cars that will meet the new greenhouse gas 
standards will also help to clear our air of nitrogen oxides, 
so we can get very substantial double benefits.
    I firmly believe that the Congress must act to provide the 
clear, comprehensive legislative framework which mandates caps 
to address global warming. But until we do so, the States must 
be free to act to begin addressing this compelling problem. We 
have lost precious time while the Bush administration tried to 
evade its responsibility to the American people to regulate 
greenhouse gases. The various voluntary initiatives that the 
Administration has pursued are no substitute for the full rigor 
of the Clean Air Act and its mandatory provisions.
    I urge the EPA and the Bush administration to grant 
California's waiver with all deliberate speed.
    Again, I thank the Chairman for this hearing.
    [The prepared statement of Senator Cardin follows:]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Madame Chairman. Thank you for holding this hearing today. I will 
keep my opening statement brief.
    Three months ago we held a hearing on the Supreme Court rulings on 
two Clean Air Act issues, including the California Waiver. Two months 
ago we held a hearing which focused directly on the California Waiver 
and EPA plans. And today we meet again. Although I believe that some 
Senators may be growing weary with this topic, we can only imagine the 
frustration that the State of California must be feeling.
    California made its request for a Clean Air Act waiver on December 
21, 2005. So while we have been revisiting this issue for several 
months, the State of California has been struggling with this issue for 
more than a year. In fact, it has now been more than 19 months in which 
the request has been pending with EPA.
    EPA took an extraordinary amount of time to formally start the 
regulatory process. That process is now underway. Public Hearings have 
held; public comments have been received; and the record is now closed. 
All that needs to happen now is for EPA to finalize the record and 
issue the waiver.
    Although I will want to seek additional details from EPA 
Administrator Johnson, the fundamental question is simple: When will 
EPA grant California's waiver request? In May I told Administrator 
Johnson that a reasonable timetable would be 60 days from the date of 
that hearing. More than 60 days have passed, and not only has EPA not 
made a decision, Administrator Johnson has announced that the Agency 
will not render a decision until the end of the calendar year.
    That is simply unacceptable.
    Maryland, like a number of other States, has already adopted 
legislation that would enable it to join with California in regulating 
greenhouse gas emissions from cars and trucks.
    A new study just completed by the National Capital Region 
Transportation Planning Board demonstrates vividly the value of the 
California waiver. The report shows that the waiver could cut projected 
levels of carbon dioxide by more than four tons in the region by 2020 
and nearly six tons by 2030.
    I ask that the full presentation from the Transportation Planning 
Board be included as part of the hearing record today because these 
numbers are really quite remarkable. This one action--simply granting 
the request that will allow States to tackle the problems that the EPA 
and this Administration seem so willing to ignore--can result in tons 
of pollution reductions.
    EPA's failure to act will result in tons of additional greenhouse 
gases polluting the region. That's unacceptable to me and to the people 
of the Washington metropolitan area and it certainly should be 
unacceptable to EPA
    In my State mobile sources are the leading cause of smog and one of 
the leading causes of greenhouse gas emissions. We have some of the 
worst smog in the Nation, and during `Code Red' days, more than 70 
percent of the pollution comes from cars and light trucks.
    Cars that will meet the new greenhouse gas standards will also help 
to clear our air of nitrogen. We get a very substantial double benefit.
    I firmly believe that the Congress must act to provide a clear, 
comprehensive legislative framework with mandatory caps to address 
global warming. But until we do so, the States must be free to act to 
begin addressing this compelling problem.
    We have lost precious time while the Bush Administration tried to 
evade its responsibility to the American people to regulate greenhouse 
gases. The various voluntary initiatives that the Administration has 
pursued are no substitute for the full rigor of the Clean Air Act and 
its mandatory provisions. I urge the EPA and the Bush Administration to 
grant California's waiver with all deliberate speed.
    Neither California nor Maryland can afford to wait any longer.

    Senator Boxer. Thank you, Senator.
    Before I call on Senator Nelson, I am going to place in the 
record, unless there is objection, a chart of the National 
Oceanic and Atmospheric Administration showing that since 1950, 
California has warmed on average 0.31 F per decade. It is a 
little bit too hard to see this. The green line has just gone 
steadily up, and of course there are years when it goes down. 
We all know that, but overall the trend is very clear. So I 
wanted to put that in the record.
    In addition to that, I want to place in the record an 
article that just came out July 23: ``California Health 
Services Releases Study of 2006 Heat Wave Fatalities.'' The 
California Department of Health Services released a study of 
deaths related to the 2006 heat wave covering 140 deaths listed 
as heat-related by county coroners.
    I will place those in the record at this time.
    [The referenced documents follows:]

    [GRAPHIC] [TIFF OMITTED] T1979.122
    
    [GRAPHIC] [TIFF OMITTED] T1979.123
    
    [GRAPHIC] [TIFF OMITTED] T1979.124
    
    Senator Boxer. Senator Nelson, we are very glad that you 
are here. I will give you 10 minutes.

 STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. Madam Chairman, I won't take the 10 
minutes. Senator Inhofe, Senator Carper, Senator Lautenberg, 
Senator Cardin, you all are my personal friends and it is a 
privilege for me to be here. I want to specifically respond to 
Senator Inhofe, who is my personal friend.
    As you all were discussing this matter, it occurred to me, 
one of my predecessors, Senator Lawton Chiles, retired from the 
Senate and one of his stated reasons was that there was just 
too much gridlock in Washington; that it was hard to get 
anything done. I happened to reflect on that as you all were 
opining your different positions.
    Senator Inhofe, it is true that California petitioned for a 
waiver in December 2005. That is over a year and a half ago. 
The reason that Florida comes to the table and why I have 
jumped into this with all four fours is that our Governor, a 
Republican, Charlie Crist, has recently joined with Governor 
Schwarzenegger in being one of those States that is applying to 
EPA for a waiver so that Florida can have higher emissions 
standards than in their own good judgment, the State's judgment 
about what is best for the State. Read States' rights, that 
they in their judgment could have a standard that was higher 
than the standards required in the national.
    I have submitted for the record and would ask, Madam 
Chairman, that the letter from Governor Crist be a part of the 
record, of which he endorses this concept. When I called 
Charlie to tell him what I was about to do, he said, how did 
you think this up? I said, well I read the statute, and what 
the statute says when it was passed I think in circa 1990, that 
California has the first waiver and then other States will 
follow after the decision is made on California.
    So if Florida wants to control its own destiny, there has 
to be the decision with regard to California. So I followed 
what is a common sense approach to this. Since the matter has 
been pending before the EPA for over a year and a half, the 
legislation simply says that no later than 30 days after the 
date of the enactment of this subsection, but in no case later 
than September 30, 2007, the Administrator shall issue to the 
Governor of each applicable State a decision on each request 
for a waiver of preemption under section B, and so forth.
    It doesn't say what his decision should be. That is the 
province of the executive branch. It says that that frustration 
that led Senator Chiles to finally retire, that we bring, to 
use the language of pilots, we bring in for a landing a 
decision.
    Now, why is this important to my State and to 12 other 
States in addition to California? Florida has more coastline 
than any other State except Alaska. Florida's coastline is 
considerably more than California, and most people think of 
California as having the largest coastline.
    We are in the subtropical region and indeed, what happens 
up there that causes a greenhouse effect is going to have the 
first consequences on the shores of a State like my beloved 
Florida, of which my family came to Florida 177 years ago. I 
don't want to see the effects of those additional greenhouse 
emissions have those kind of effects.
    And so Madam Chairman, that is why I am here, and that is 
why I read the statute, and that is why I, as a Democrat, this 
isn't a bipartisan matter with my Republican Governor. This is 
a nonpartisan issue.
    The States that have applied for the waiver, Senator 
Inhofe, 44 percent of the entire Nation's population are in 
those States. This is those States wanting to take control of 
their own destiny.
    So Madam Chairman, I told you I didn't need to take 10 
minutes. I just wanted to lay out why I come to the table with 
this legislation.
    Senator Boxer. Thank you so much, Senator Nelson.
    Any Members wish to ask a question to Senator Nelson at 
this time? If not, we thank you very, very much, and we will 
call Administrator Johnson to the table.
    While he is coming forward, I ask unanimous consent to 
enter Senator Whitehouse's statement into the record, as well 
as Governor Crist's letter.
    [The referenced document follows. Senator Whitehouse's 
statement was not received at time of print.]

[GRAPHIC] [TIFF OMITTED] T1979.125

[GRAPHIC] [TIFF OMITTED] T1979.126

    Senator Boxer. I think it is interesting, before Senator 
Nelson leaves, to say that his closing line is ``Florida 
anxiously awaits.'' This is the sense of urgency I hear in your 
voice, and it is certainly indicated in his letter. So we will 
put those in the record as well.
    Administrator, welcome. You can take up to 10 minutes.

     STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you very much, Madam Chairman. Good 
morning, Chairman Boxer and members of the committee.
    I appreciate this opportunity to update you on the status 
of EPA's response to the California petition for its greenhouse 
gas motor vehicle emission standards. As you know, on June 15, 
EPA completed the public comment process required by the Clean 
Air Act. Although we received requests to extend the deadline, 
in an effort to move forward quickly and responsibly, we 
decided to close the comment period and begin our review.
    During the comment process, we were committed to be as open 
and inclusive as possible. So in addition to our normal 
practice of offering a public hearing in Washington, DC, we 
also held a hearing in Sacramento, CA. We received over 60,000 
comments, including thousands of pages of technical and 
scientific documentation. This is an unprecedented number of 
comments on a California waiver request. Given the complexity 
of the issues, we have devoted the necessary resources to 
expeditiously review the extensive comments and respond to the 
requests.
    Currently, the Agency is performing a rigorous analysis in 
order to properly consider the legal and technical issues that 
we must address in making a decision under the Clean Air Act 
waiver criteria.
    Recognizing the importance of a timely decision, I recently 
wrote to Governor Schwarzenegger committing to make a final 
determination on the request by the end of this year. We will 
continue to inform the committee of our progress in this 
matter.
    I would also like to briefly address other recent 
developments in the Bush administration's aggressive and 
practical strategy to reducing greenhouse gas emissions, while 
advancing our Nation's energy security. As part of an 
unparalleled financial, international and domestic commitment 
to addressing this global challenge, earlier this year the 
Administration sent Congress legislative proposals to achieve 
the President's Twenty in Ten plan. The President's Twenty in 
Ten plan would require the use of 35 billion gallons of 
renewable and alternative fuel by 2017. It would also reform 
and modernize CAFE standards, increasing fuel efficiency for 
cars up to 4 percent per year beginning 2010, and up to 4 
percent for light trucks beginning in 2012.
    While the President continues to believe that effective 
legislation is the best approach to implementing his plan, on 
May 14 he directed EPA and our Federal partners to move ahead 
and take the first regulatory steps to address greenhouse gas 
emissions from cars. We are working across agencies to develop 
a proposed regulation by the end of this year, with a final 
rule out by the end of 2008, as directed by the President.
    This is an aggressive pace for developing any rule, let 
alone a rule of this magnitude.
    Before I conclude, I would like to take this opportunity to 
note that this past Tuesday, EPA released its economic and 
technical analysis of S. 280, the McCain-Lieberman Climate 
Stewardship and Innovation Act of 2007. I would be happy for my 
technical staff to continue to answer your questions regarding 
this analysis.
    Once again, thank you for the chance to testify this 
morning. Before I take questions, I would ask that my full 
written statement be submitted for the record.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Johnson follows:]

  Statement of Stephen L. Johnson, Administrator, U.S. Environmental 
                           Protection Agency

    Good morning, Chairman Boxer and members of the Senate Committee on 
Environment and Public Works. I appreciate the opportunity to come 
before this Committee again to update you on the status of EPA's 
response to California's request for a waiver of preemption for its 
greenhouse gas motor vehicle emission standards. I also will address 
other recent developments regarding the Administration's efforts to 
address the long term challenge of global climate change.

                    I. THE CALIFORNIA WAIVER REQUEST

    First, I want to clarify that EPA is following two separate tracks 
for the consideration of greenhouse gas regulations for motor vehicles. 
As I have previously indicated in Congressional testimony, EPA is 
working with its interagency partners to develop a proposed rule for 
the federal regulation of emissions of greenhouse gases from new motor 
vehicles. After considering public input through a notice and comment 
process, it is our intention to issue a final rule by the end of 2008. 
Separately, EPA is considering California's waiver request for its 
motor vehicle greenhouse gas regulation, under the statutory waiver 
authority provided in section 209 of the Clean Air Act.
    With respect to the California waiver request, we have completed 
the public comment process required by the Clean Air Act. In addition 
to our normal practice of offering a public hearing in Washington, DC, 
which was held on May 22nd, at the request of the state, we held an 
additional hearing in Sacramento, California, on May 30th. We heard 
from over 80 individuals representing a broad scope of interests 
including States and local governments, public health and environmental 
organizations, academia, industry and citizens.
    In our Notice announcing the public comment process we stated that 
the written comment period would close on June 15, 2007. We received 
requests to extend the deadline but did not do so. We received well 
over 60,000 comments. This is an unprecedented number of comments on a 
California waiver request. Parties commented on the three statutory 
waiver criteria as well as the additional three questions we raised in 
our April notice.
    We are now examining the full range of technical and legal issues 
raised by the comments. Given the complexity of the issues presented in 
the California waiver request, EPA is devoting the necessary resources 
in order to expeditiously review the extensive comments we have 
received, and respond to the waiver request. The Agency is performing a 
rigorous analysis in order to properly consider the legal and technical 
issues that we must address in making a decision under the Clean Air 
Act waiver criteria. In recent written correspondence with California's 
Governor Schwarzenegger, I have committed to issuing a decision on the 
waiver by the end of this year. We will continue to inform the 
Committee of our progress in this matter.

              II. THE ``TWENTY IN TEN'' RULEMAKING PROCESS

    Earlier this year, the Administration sent Congress legislative 
proposals to achieve the ``Twenty in Ten'' plan. The plan would 
increase the supply of renewable and other alternative fuels by setting 
a mandatory fuels standard to require the equivalent of 35 billion 
gallons of renewable and other alternative fuels in 2017, nearly five 
times the 2012 Renewable Fuels Standard (RFS) mandate established by 
the Energy Policy Act of 2005. In 2017, this will displace 15 percent 
of projected annual gasoline use. This plan would replace the RFS in 
the year 2010, while retaining the flexible credit, banking, and 
trading mechanisms contained in the RFS. It would provide an 
accelerated schedule for alternative fuel requirements in the years 
2010 to 2017.
    The plan also would reform and modernize Corporate Average Fuel 
Economy (CAFE) standards for cars, and further increase the CAFE 
standards for light trucks. Fuel efficiency standards for cars would be 
increased substantially beginning in 2010, and for light trucks 
beginning in 2012. In 2017, we aim to reduce projected annual gasoline 
use by up to 8.5 billion gallons, a further 5 percent reduction that, 
in combination with increasing the supply of renewable and other 
alternative fuels, will bring the total reduction in projected annual 
gasoline use to 20 percent.
    While the President continues to believe that effective legislation 
is the best approach to implementing his ``Twenty in Ten'' plan, he has 
directed EPA and our federal partners to work toward these goals now by 
developing regulations based on the framework of ``Twenty in Ten''. The 
President has directed us to complete this regulatory process by the 
end of 2008. This is a very aggressive timeframe, but one that I am 
confident that my staff, working with our federal partners, can 
achieve.
    EPA meets regularly with the Departments of Transportation, Energy, 
and Agriculture to ensure coordination of our work efforts. In 
addition, we are holding more than a dozen meetings with major 
stakeholder groups to ensure that they are involved in the process from 
the very beginning. We also have begun the analytical work necessary to 
establish standards that carefully consider science, available 
technologies, lead time, and vehicle safety while evaluating benefits 
and costs. As part of this process, we are working to identify the 
appropriate analytical resources that exist across the federal 
government to help EPA and other Departments and Agencies in their 
efforts to develop a rulemaking based on sound data and thorough 
technical analysis.
    Any regulation of greenhouse gas emissions from new motor vehicles 
under Clean Air Act section 202(a) requires that EPA make a 
determination that emissions of greenhouse gases from new motor 
vehicles, primarily carbon dioxide emissions, cause or contribute to 
air pollution that may reasonably be anticipated to endanger public 
health or welfare. Section 211(c) of the Clean Air Act contains a 
similar standard with respect to motor vehicle fuels. We are therefore 
reviewing the most recent and robust scientific evidence from the 
climate change research community, including EPA's own Global Change 
Research Program.
    A substantial amount of work remains to determine the scope of our 
assessment. For example, EPA may need to consider a range of science 
and impact issues, such as the accumulation of greenhouse gas 
concentrations in the atmosphere; the observed trends in average global 
warming, projected sea level rise, and precipitation patterns; the 
attribution of these and other observed changes to emissions of carbon 
dioxide and other greenhouse gases from human activities; the impact of 
US greenhouse gas emissions on global CO<INF>2</INF> concentrations; 
the vulnerability of the natural environment, human health, and society 
to climate change; and the future projected effects within the U.S. 
under various projected rates of climate change over the course of this 
century. As directed by Executive Order 13432, EPA will coordinate 
with, and seek input from, climate change experts in other government 
agencies as well as the public.
    When approaching the issue of greenhouse gas emissions estimates 
from the transportation sector, it should be recognized that 95 percent 
of such emissions consist of carbon dioxide, with the remaining 5 
percent of emissions consisting of nitrous oxide and methane exhaust 
emissions and hydrofluorocarbons from air conditioners. In addressing 
greenhouse gas emissions from the transportation sector, one must 
recognize that on-board technology to control carbon dioxide emissions 
from vehicles does not currently exist, however carbon dioxide 
emissions from vehicles can be reduced by increasing their fuel 
economy. In addition, using a Department of Energy model, EPA analysis 
conducted as part of the Renewable Fuel Standard shows that fuels such 
as cellulosic ethanol have the potential to offset lifecycle greenhouse 
gas emissions by over 90 percent when compared with gasoline derived 
from crude oil. Biodiesel can result in the displacement of nearly 68 
percent of lifecycle greenhouse gas emissions relative to diesel made 
from petroleum. Increasing the use of such fuels in the transportation 
sector has the potential to make substantial reductions in greenhouse 
gas emissions. Increasing the fuel economy of a vehicle can also 
decrease greenhouse gas emissions.

   III. A NEW INTERNATIONAL FRAMEWORK ON ENERGY SECURITY AND CLIMATE 
                                 CHANGE

    On May 31st, the President called upon the world's major economies 
to work together to develop a long term global goal to reduce 
greenhouse gas emissions. The President's plan recognizes that a new 
climate framework must be developed in a way that enhances energy 
security and promotes economic growth and includes both major developed 
and developing economies. This fall, the United States will convene the 
first of a series of meetings for the world's largest economies and 
energy consumers to advance and contribute to a new global agreement 
under the United Nations Framework Convention on Climate Change 
(UNFCCC). The participants in the framework will work together to 
develop a global emissions reduction goal, underpinned by national 
strategies and sectoral approaches that will set a practical, but 
flexible, path forward. The effort will build on the Asia Pacific 
Partnership on Clean Development and Climate and other partnerships to 
develop and implement clean energy technologies. We were pleased that 
the major elements of the President's proposal were favorably received 
and incorporated into the leaders' statement at the recent meetings of 
the G8+5 in Germany a short time ago.

                             IV. CONCLUSION

    Ms. Chairman, today I have outlined EPA's consideration of 
California's request for a waiver of preemption for its greenhouse gas 
motor vehicle emission standards, our ``Twenty in Ten'' legislative 
proposals, as well as recent developments regarding the 
Administration's efforts to address the important issue of global 
climate change. I look forward to working with you and other Members of 
the Committee on these challenging issues, and would be pleased to 
answer any questions that you might have. Thank you for the opportunity 
to testify.
                               __________
     Responses by Stephen L. Johnson to Additional Questions from 
                             Senator Boxer

    Question 1. You said that you will make a decision on the 
California waiver by the end of this year. The comment period closed on 
June 15th. How did you arrive at the December date? How much time are 
you allotting for interagency review of your decision on the waiver?
    Response. In addition to holding two public hearings on 
California's waiver request (on May 22, 2007 and May 30, 2007), EPA 
also afforded the public the opportunity to submit written comment 
until June 15, 2007. The Agency also received significant comments 
belatedly, including supplemental comments from CARB on July 24, 2007, 
and from the automobile manufacturers on October 9, 2007; EPA in its 
discretion has decided to consider all belated comments in its 
decision-making process. In all, the Agency received nearly 100,000 
comments during the public comment process. While many of the 
``postcard comments'' reflect common views, other comments received 
address a wide variety of issues including those raised in questions 4 
through 7 below, and the Agency must reach a reasoned, comprehensive 
decision.
    My commitment to reach a waiver decision by the end of 2007 
provides the Agency with a sufficient amount of time to review an 
unprecedented number and scope of legal and technical comments--i.e., 
the time needed to engage in good government--balanced with 
California's desire for expeditious action. I will work to ensure that 
any interagency review will not unreasonably delay the decision of EPA.

    Question 2. The President has asked EPA to help write regulations 
to implement his ``20-in-10'' plan to reduce projected gasoline 
consumption. In your written testimony, you stated that the schedule 
for the ``20-in-10'' rulemaking is ``very aggressive.'' Is this effort 
in any way slowing down EPA's work on California's waiver request? Can 
you assure me that the ``20-in-10'' rulemaking is not getting in the 
way of a decision on California's request?
    Response. The Agency is working expeditiously to issue a decision 
on the waiver request by the end of 2007. Our work on a greenhouse gas 
rulemaking for vehicles and fuels using 20-in-10 as a starting point is 
not slowing down EPA's work on California's waiver request. While the 
Agency's timelines on these issues--a decision on the California waiver 
by the end of this year, and a proposed rule for vehicles also to be 
issued this year--are quite aggressive, there is overlap in staff and 
information between the two efforts, and EPA has committed the 
necessary resources to complete both of these efforts in an expeditious 
manner.

    Question 3. Last month Department of Transportation officials 
actively solicited members of Congress and governors to oppose 
California's waiver request. We now know that DOT's lobbying campaign 
was orchestrated at the very top of the agency, including by DOT 
Secretary Mary Peters. In the midst of that campaign, you contacted 
Secretary Peters to discuss the California waiver. When DOT officials 
learned that you wanted to talk with Secretary Peters about the waiver, 
they made sure she was updated on calls that had been made to members 
of Congress and governors. You spoke with the Secretary later that day. 
The following day, more calls were made.
    (a) During your conversation with Secretary Peters, did the issue 
of contacting congressional offices to oppose the California waiver 
come up? I asked you a similar question at the July 26 hearing, but you 
did not provide a direct answer. Please answer this question ``yes'' or 
``no''. If you fail to answer ``yes'' or ``no,'' I will infer that the 
issue did come up, since you have no difficulty answering ``no'' if 
that is the answer to the question.
    (b) If the issue did come up, did you say anything to Secretary 
Peters about the propriety of DOT soliciting members of Congress to 
oppose the California waiver request? Did you try to stop it? I asked 
you similar questions at the July 26 hearing, but you would only say 
that you deferred to DOT. Your failure to provide a direct answer to 
these questions strongly suggests that you knew about and acquiesced in 
DOT's campaign against the California waiver. Please answer these 
questions at this time, or I will have to conclude that you were aware 
of DOT's campaign and did nothing to stop it.
    (c) In light of DOT's actions, how can we have any confidence that 
you will be allowed to decide the waiver request based on a fair and 
impartial assessment of the merits of the request?
    (d) Do you believe it was appropriate for DOT to solicit members of 
Congress and Governors to oppose California's waiver request, 
particularly when the public was still commenting on the request and 
EPA's expert staff had yet to complete their review and analysis of it? 
I asked you a similar question at the hearing, but you again deferred 
to DOT. Please answer the question of whether you believe DOT's actions 
were appropriate. I you fail to answer the question, I will infer that 
you are not opposed to DOT's efforts to enlist members of Congress and 
Governors to oppose California's request. That, in turn, will indicate 
to me that you are no longer an objective decision-maker, at least for 
purposes of this request.
    (e) Please submit any documents in the agency's possession relating 
to DOT's solicitation of members of Congress or Governors with respect 
to California's waiver request. Documents include draft or final 
memoranda or briefing papers, emails, notes or any other written 
communications.
    Response. First, let me assure you that we are working diligently 
on responding to California's waiver request. I hold the responsibility 
for making a decision on California's waiver request, which rests with 
me as Administrator of the EPA, very seriously. I can assure you that I 
am undertaking a fair and impartial assessment of the request. Given 
the complexity of the issues presented in the California waiver 
request, EPA is devoting the necessary resources in order to 
expeditiously review the extensive comments we have received, and 
respond to the waiver request by the end of this year. The Agency is 
performing a rigorous analysis in order to properly consider the legal 
and technical issues that we must address in making a decision under 
the Clean Air Act waiver criteria.
    As part of our regular and routine conversations, I contacted 
Secretary Peters to give her an update on the status of several actions 
before the agency. One of the items I wanted to notify her of was that 
the comment period on the California waiver request was closing and 
that while I had received requests for extension, I was inclined to 
deny these requests. While I am committed to an open and inclusive 
comment process, at the time of that conversation I was inclined to 
deny and, in fact, later did decline the requests for extension of the 
comment period. I do not recall any specific discussion regarding 
contacting Congressional offices, including particularly whether to 
solicit opinions on the California waiver. I do recall asking Secretary 
Peters whether she was aware of anyone else seeking an extension of the 
comment period. A day later I instructed my staff to deny the requests 
for an extension.
    I also am enclosing copies of documents relating to DOT's 
communications with Congress or Governors with respect to the 
California waiver. As you know, general communications between our two 
branches are not prohibited. Without weighing in on the appropriateness 
of specific communications undertaken by the Department of 
Transportation, I can assure you that EPA is undertaking a deliberate 
and rigorous analysis of the waiver request, and that I, as 
Administrator of EPA, will be issuing a fair, impartial and independent 
decision. [See pp. 189-193.]

    Question 4. Is anyone in the Administration suggesting that EPA 
could deny the California waiver request because the Administration is 
developing its own, national rule to reduce greenhouse gas emissions 
from vehicles? Isn't it correct that you could not deny California's 
waiver request on that basis?
    Response. Various comments have been received that raise this 
issue. I can assure you that EPA is carefully assessing all comments, 
including those that comment on the relationship between the waiver 
request and the regulatory effort on GHG emissions from vehicles. Until 
EPA makes a final decision on the waiver request, it would be 
inappropriate for EPA to indicate its position on any issue that has 
been raised, regardless of whether the issue points to a grant or 
denial of the waiver.

    Question 5. At the committee's May 22, 2007 hearing, ``Examining 
the Case for the California Waiver,'' Professor Jonathan Adler of the 
Case Western University Law School suggested that California's 
standards may not be needed ``to meet compelling and extraordinary 
conditions.'' I find that suggestion astounding. California is expected 
to experience rising sea levels, reduced water supplies, increased smog 
and a host of other serious problems as a result of global warming. 
Don't these impacts fall within the meaning of ``compelling'' and 
``extraordinary''?
    Response. As with the issue noted in Question 4, various public 
comments have been received that raise this issue, and EPA is carefully 
assessing all comments (both oral and written). Until EPA makes a final 
decision on the waiver request, it would be inappropriate for EPA to 
indicate its position on an issue raised in the public comments, 
regardless of whether those comments are in favor of or opposed to 
granting the waiver.

    Question 6. Professor Adler and others have also suggested that 
since California's standards cannot, by themselves, make a big dent on 
global greenhouse gas levels, the standards are not ``needed'' to meet 
compelling and extraordinary conditions. But, as the Supreme Court said 
in Massachusetts v. EPA, we often ``chisel away'' at public policy 
problems bit by bit. Other California vehicle emission standards have 
been only a part of larger packages of environmental controls designed 
to improve air quality.
    Has EPA ever before decided a California waiver request based on 
whether the standards under consideration would make a big enough 
difference to the problem being addressed? Won't California greenhouse 
gas standards, if implemented by California and the other 12 states 
that have already adopted the standards, result in lower greenhouse gas 
concentrations than would have occurred if those standards had not been 
implemented? And won't those lower concentrations result in 
incrementally less global warming?
    Response. EPA has denied, in whole or in part, very few waiver 
requests from California. EPA's decision on the waiver will be based on 
the statutory criteria set forth in Section 209 of the Clean Air Act. 
And again, as with the issues raised in Questions 4 and 5, various 
public comments have been received that raise this issue, and EPA is 
carefully assessing all comments (both oral and written). Until EPA 
makes a final decision on the waiver request, it would be inappropriate 
to take a position on an issue raised in the public comments, 
regardless of whether those comments are in favor of or opposed to 
granting the waiver.

    Question 7. I understand that you must consider whether automakers 
have enough time to meet California's standards. Isn't it true that the 
amount of available ``lead time'' is measured from the date California 
adopted its standards, not from the date you decide the waiver request? 
Since California adopted its greenhouse gas standards in 2005, haven't 
automakers had 4 years of leadtime to meet the first, less stringent 
set of standards?
    Response. As with the issues raised in Questions 4, 5, and 6, 
various public comments have been received that raise this issue, and 
EPA is carefully assessing such comments. Until EPA makes a final 
decision on the waiver request, it would be inappropriate to take a 
position on an issue raised in the public comments, regardless of 
whether those comments are in favor of or opposed to granting the 
waiver.

    Question 8. At the committee's April hearing on EPA's response to 
the Supreme Court case, Massachusetts v. EPA, you testified that you 
wanted to consider all of the options for EPA action on greenhouse gas 
emissions before deciding on a response. I asked you to give us a 
progress report on that effort when I called you back to testify about 
EPA's progress on the California waiver request. Please describe the 
work your agency has done to identify and assess options for regulation 
under the Clean Air Act, and submit any information and analyses that 
EPA staff have developed or produced for that purpose.
    Response. No response.

    Question 8a. I understand that EPA has several regulatory and 
permitting decisions before it that might lead to the regulation of 
greenhouse gases under the Clean Air Act. Please provide us with a list 
of those actions.
    Response. In the following pending ``actions,'' stakeholders have 
requested that EPA issue CAA regulations for greenhouse gases:
    1. Petition from the International Center for Technology Assessment 
(ICTA) seeking regulation of greenhouse gas emissions from new motor 
vehicles under section 202 of the Clean Air Act: EPA's denial of this 
petition ultimately led to the Supreme Court decision in Massachusetts 
v. EPA. The D.C. Circuit vacated and remanded EPA's denial on September 
14, 2007. It is in response to the Massachusetts decision, as well as 
the direction of the President, that the Agency is developing proposed 
regulations to address greenhouse gas emissions from new motor vehicles 
and fuels under sections 202 and 211 of the Clean Air Act. The proposal 
is expected by end of 2007, and a final rule expected by Fall 2008.
    2. Revisions to the New Source Performance Standards (NSPS) for 
Petroleum Refineries: On April 30, 2007, EPA signed proposed revisions 
to the refinery NSPS. Based on that proposal, commenters argued that we 
must regulate CO<INF>2</INF> and methane from these facilities as part 
of the proposed NSPS revisions. A consent decree deadline requires us 
to finalize the revisions by April 30, 2008.
    3. Revisions to the NSPS for utility boilers: EPA declined to set a 
standard for CO<INF>2</INF> in revisions that were finalized in 2006, 
and that decision was challenged before the D.C. Circuit. The court 
remanded the issue back to the agency on September 24, 2007, and the 
Agency is analyzing the relevant issues in detail.
    4. Petitions from the California Attorney General and several 
environmental groups seeking regulation of greenhouse gas emissions 
from ocean-going vessels and fuels under sections 213 and 211 of the 
Clean Air Act. The petitions were dated October 3, 2007.

    Question 8b. You and other federal agencies have been tasked by the 
President to undertake a rulemaking to implement the goals of the 
President's ``20-in-10'' plan in accordance with Executive Order 13432. 
Does that rulemaking represent EPA's response to the Supreme Court's 
decision in the Massachusetts v. EPA case overruling EPA's position 
that it cannot and will not regulate greenhouse gas emissions from 
motor vehicles cause or contribute to air pollution that may be 
reasonably anticipated to endanger public health and welfare? And what 
action is the agency planning to take if such an endangerment finding 
is made?
    Response. EPA is initiating a Clean Air Act rulemaking that will 
use the President's 20-in-10 plan as a starting point. In that 
rulemaking, EPA intends to respond to the petition from the 
International Center for Technology Assessment, which has now been 
remanded to the agency by the D.C. Circuit, following the Supreme Court 
decision in Massachusetts v. EPA. As noted above, a proposed rule is 
expected to be issued by the end of this year.

    Question 8c. In your testimony, you elaborated on the scope and 
complexity of the scientific information you need to consider in making 
an endangerment finding under sections 202 or 211 of the Clean Air Act. 
You and the Bush Administration are on record as accepting the findings 
of the IPCC reports that have been released this year on the science 
and effects of climate change and on opportunities for mitigating it. 
In light of the IPCC reports, don't you have sufficient information and 
analyses on which to base an endangerment finding for purposes of 
sections 202 and 211 of the Clean Air Act, particularly since the legal 
threshold for the finding is ``reasonable anticipation'' of 
endangerment? Don't the IPCC reports provide a basis for such an 
endangerment finding that is at least as extensive and carefully 
reviewed by scientific experts as that relied upon by EPA for other 
endangerment findings under the Clean Air Act?
    Response. EPA is in the process of evaluating the most up-to-date 
information for purposes of determining whether the air pollution 
caused by greenhouse gases may reasonably be anticipated to endanger 
public health or welfare. As part of that evaluation, we are reviewing 
the most recent Fourth Assessment Report of the IPCC and available 
reports that have recently been published under the U.S. Climate Change 
Science Program (CCSP), as well as reports by the National Research 
Council of the National Academy of Sciences. As with the endangerment 
findings we have made since 1990, we plan to render our final decision 
on endangerment only after an opportunity for notice and comment. Thus, 
the issue of endangerment will be presented for notice and comment at 
the same time that we propose to regulate greenhouse gases from motor 
vehicles and fuels.

    Question 8d. To achieve the President's ``20-in-10'' goals, I 
understand that EPA and other federal agencies are developing 
regulations for both vehicles and fuels. With respect to vehicles, what 
approach is being taken--changes in corporate average fuel economy 
(CAFE) standards under the Energy Policy and Conservation Act (EPCA) or 
establishment of emission standards under the Clean Air Act? It would 
appear that the choice of regulatory approach would have significant 
implications for how standards are set and how much vehicle greenhouse 
gas emissions are reduced, since the two statutes are different in 
their standard-setting tests. Please explain the approach being taken 
and how that approach differs, if at all, from EPA's typical analytical 
approach to setting vehicle emission standards under the Clean Air Act.
    Response. EPA expects to propose vehicle emissions standards under 
Section 202 of the Clean Air Act, as well as fuel regulations under 
section 211. With respect to vehicle emissions standards, EPA is 
exploring joint rulemaking authorities with DOT, given the overlap of 
fuel economy and greenhouse gas emissions. The proposed regulations are 
being developed in coordination with DOT, DOE and USDA, as directed by 
the President in his Executive order and announcements on May 14, 2007. 
The agencies are using the President's ``Twenty in Ten'' plan as a 
starting point.

    Question 8e. The President's ``20-in-10'' plan provides for coal-
to-liquid fuel to play a role in reducing gasoline consumption. As you 
know, the production and use of coal-to-liquid fuel can result in far 
higher greenhouse gas emissions than the production and use of 
gasoline. How are EPA and the other agencies that are developing the 
``20-in-10'' regulations reconciling this fact with the need to reduce 
greenhouse gas emissions, which Executive order 13432 recognizes as an 
important purpose of the rulemaking?
    Response. EPA expects to propose fuel regulations under section 211 
of the Clean Air Act using the President's 20-in-10 plan as a starting 
point. As part of our analyses, we are evaluating different renewable 
and alternative fuels, including corn-based ethanol, cellulosic 
ethanol, biodiesel, coal-to-liquids, and various other renewable and 
alternative fuels. We are examining the greenhouse gas emission impacts 
from all of these fuels and we intend to address this and other issues 
in the proposed rule which is currently under development.
                                 ______
                                 
      Responses by Stephen L. Johnson to Additional Questions from
                             Senator Cardin

    Question 1. As you know, up to one-third of the excess nitrogen 
that is polluting the Chesapeake Bay comes from air pollution sources, 
including cars and trucks. The clean cars regulations that we are 
discussing this morning will have beneficial effects on the Chesapeake 
Bay, and not just by reducing climate effects. Have you looked at the 
benefits in terms of air quality and water quality that will result 
from the clean cars legislation that California, New York, Maryland and 
other states have adopted?
    Response. As you are aware, my staff is in the process of reviewing 
all information submitted during the public comment process on 
California's pending request for a waiver for California's new motor 
vehicle greenhouse gas emission standards. Much of this information 
pertains to the greenhouse gas emission standards' effect on climate 
conditions, as well as general air and water quality and supply in 
California. Review of this information by its nature focuses on 
California conditions, as guided by the criteria set forth in the Clean 
Air Act.

    Question 2. When you appeared before this committee in May, I told 
you that the reasonable timeline that I would be judging you by is a 
decision from EPA 30 days after the close of the public comment period. 
I stand by that timeline. The clock has run out. You have stated that 
you will not be ready to render a decision on the waiver request until 
the end of the year. As I indicated in my opening remarks, that's not 
acceptable, and I'm convinced that you can do better.
    a. Would you please tell me how many EPA staff is currently working 
on the waiver request?
    b. How many people work for EPA in the Air Program and the Office 
of General Counsel? A rough estimate is acceptable.
    c. Can some of those staff people be devoted to the California 
waiver review in order to accelerate your timeline?
    d. Does EPA employ contractors to help process comments for the 
Record? Is the Agency doing so in this instance? Can additional 
contract personnel be added to accelerate your timeline?
    Response. The California GHG waiver request is being reviewed by a 
team of EPA staff primarily from the Office of Air and Radiation and 
the Office of General Counsel. This team includes attorneys, engineers 
and scientists who are analyzing the complex legal and technical issues 
encompassed in the waiver request. EPA has approximately 1271 employees 
in the Office of Air and Radiation and approximately 350 employees in 
the Office of General Counsel; the necessary and appropriate staff and 
resources have been devoted to this important project. The Agency's 
team for the waiver request is working as expeditiously as possible to 
review and evaluate all the information and comments submitted to 
permit the Administrator to make an informed decision. Additionally, 
because of the unusually high number of comments received (just under 
100,000 at current count), EPA has employed a contractor to complete a 
summary of the comments, but given that the expertise for analyzing the 
comments lies with Agency personnel, EPA has not employed contractors 
for additional tasks.

    Question 3a. I would like to turn to the recent analysis conducted 
by the National Capital Region Transportation Planning Board for the 
Metropolitan Washington Council of Governments. As I noted in my 
opening statement, the report details the expected growth in greenhouse 
gas emissions and the positive benefits that would result from the 
adoption of the California Car rule in this area. Are you familiar with 
the study, called ``CO<INF>2</INF> Emissions from Cars, Trucks, & Buses 
in the Metropolitan Washington Region''?
    Response. Assuming you are referring to a presentation delivered by 
Ron Kirby, Director of Transportation Planning for the National Capital 
Region Transportation Planning Board, then yes, I am familiar with that 
study.

    Question 3b. Are you surprised to learn that the Transportation 
Planning Board estimates that the California Car rule would result in a 
4 million ton reduction in CO<INF>2</INF> emissions by 2020?
    Response. A number of different views regarding California's 
greenhouse gas regulations have been expressed, both through the public 
comment process on California's waiver request as well as through the 
media and elsewhere. I am fully aware that some have attempted to 
quantify the CO<INF>2</INF> emission reductions to be accomplished by 
the California regulations; accordingly, I am not surprised by the 
estimates of the Transportation Planning Board.

    Question 3c. Does a 4 million ton reduction in this area seem 
substantial to you? Can you identify any other action that EPA is 
taking in the metropolitan Washington area that will result in this 
level of reductions?
    Response. Climate change is a global concern; therefore, reductions 
in emissions of greenhouse gases (GHG), such as CO<INF>2</INF>, are 
equally beneficial regardless of where they take place. EPA has a 
number of voluntary programs that are aimed at reducing GHG emissions 
across the country, such as the Energy Star, Climate Leaders and 
SmartWay Transport Programs. In 2006, EPA's climate protection programs 
prevented 70 million metric tons of carbon equivalent greenhouse gas 
emissions in the U.S., including the Washington, DC metro area.
    In addition, under an Executive order signed by the President in 
May 2007, EPA is working with other Federal agencies to implement 
through mandatory regulations significant reductions in greenhouse 
gases from motor vehicles and fuels. The Agency will use the 
President's 20-in-10 plan as a starting point to improve energy 
security and reduce GHG emissions. A proposal will be published later 
this year for public review and comment. Once completed, these 
regulations would apply across the nation.

    Question 3d. The Washington metropolitan area is designated as a 
non-attainment area for the 8-Hour Ozone standard, isn't that correct? 
And the Washington non-attainment area includes the District of 
Columbia as well as other counties in both Maryland and Virginia, 
doesn't it? Administrator Johnson, do you live in the Washington non-
attainment area? Wouldn't you like to see a 4 million ton reduction in 
greenhouse gas emissions here by 2020?
    Response. The answer to your first question is: yes, the 
Metropolitan DC area is classified as moderate nonattainment for the 8-
hour ozone national ambient air quality standard (NAAQS), and will need 
significant ozone precursor reductions to attain that standard. The 
nonattainment area includes DC and surrounding counties in MD and VA. 
EPA has taken many steps at the Federal level to reduce major sources 
of ozone precursors. For example, the Clean Air Interstate Rule (CAIR) 
provides a Federal framework requiring 28 eastern states and the 
District to reduce emissions of sulfur dioxide (SO<INF>2</INF>) and 
nitrogen oxides (NOx)--an ozone precursor. EPA anticipates that states 
will achieve these goals primarily by reducing emissions from the power 
generation sector. EPA estimates that in 2009, CAIR will reduce NOx 
emissions by 1.7 million tons or 53 percent from 2003 levels. In 2015, 
CAIR will reduce power plant NOx emissions by 2 million tons, achieving 
a regional emissions level of 1.3 million tons, a 61 percent reduction 
from 2003 levels.
    Additionally, EPA's clean diesel rules will reduce air pollution 
from diesel engines by more than 90 percent once fully implemented, 
resulting in the annual reduction of 2.6 million tons of NOx and 
110,000 tons of particulate matter.
    Your last question, in which you mention a 4 million ton reduction, 
refers to greenhouse gases (GHG). As described in response to Question 
3c above, EPA has a number of efforts underway to address emissions of 
GHG's now and into the future.

    Question 4. The National Capital Region Transportation Planning 
Board concludes their report by saying, in part, ``To achieve 
CO<INF>2</INF> reductions we need to reduce CO<INF>2</INF> emissions 
per vehicle mile . . .'' Given the preponderance of mobile sources of 
emissions in this region, do you believe that it is possible to reduce 
greenhouse gas emissions in this area without requiring emission 
reductions from cars and light trucks?
    Response. Achieving reductions in CO<INF>2</INF> emissions per 
vehicle mile from cars and light trucks is certainly a way to reduce 
emissions of CO<INF>2</INF> emissions. EPA is considering regulations 
that would reduce CO<INF>2</INF> emissions from vehicles in the CAA 
rulemaking discussed above. In his presentation to the TPB, Mr. Kirby 
indicated that another means to reduce greenhouse gases is to reduce 
vehicle miles of travel (versus reducing emissions of greenhouse gas 
per mile of through vehicle-based controls). Travel demand (e.g., 
telecommuting, mass transit) and land use planning strategies were 
cited in his presentation as means to achieve reductions in VMT that 
would directly reduce greenhouse gases. According to the TPB 
presentation you cite, current Washington metropolitan area VMT 
reduction strategies (excluding the CA LEV greenhouse gas program) are 
expected to yield a 1 to 2 percent reduction in greenhouse gases by 
2030.

    Senator Boxer. Thank you.
    Administrator Johnson, reading between the lines of your 
testimony harkens me back to what I said in mine, which is that 
we are fearful that instead of granting this waiver, and 
California has never had a waiver turned down, that you may 
well be thinking that the Executive Order of the President is 
going to substitute for this.
    I want to point out to you that the Executive order really 
has no action required. It is just get together and talk, No. 
1. Also, the fuels program of the President, it is commendable 
in the sense that we want to get off foreign oil. However, it 
leaves the door wide open to very dirty fuels, fuels that would 
release more greenhouse gas emissions than petroleum does 
today. Coal-to-liquid is certainly not out of the picture if 
you look at the President's Order.
    So what you said here really alarms me. I want to send a 
message out to the Governors who are planning on suing you to 
go ahead and move forward. You have said nothing that makes me 
feel comfortable that you are moving in the right direction. I 
didn't hear one thing.
    Now, you have received lots of information. You didn't 
really talk about whether you think it is well done. You didn't 
address the fact that you sat on your hands until the Supreme 
Court finally said the obvious. You know, when history is 
written, I think they will look back at this tenure of yours as 
a missed opportunity. That is putting it in the nicest way that 
I can, because it could prove disastrous, but I am hoping with 
the change we are sensing on this committee across party 
aisles, and the people out there, and the business community 
that is so far ahead of you, that we can make up for your 
inaction.
    Now, you said there were extensive comments, and you said 
there were over 60,000. Is that correct?
    Mr. Johnson. That is correct.
    Senator Boxer. OK. How many of these were mass mailings?
    Mr. Johnson. I believe, what my staff has informed me, 
literally thousands, but also the staff point out to me that 
there are literally thousands of pages of scientific and 
technical analysis.
    Senator Boxer. I am talking about the comments.
    Mr. Johnson. That is what I am talking about.
    Senator Boxer. You said there were 60,000 comments. How 
many of those were mass mailings?
    Mr. Johnson. I don't know the number off the top of my head 
because we are still characterizing and analyzing the comments.
    Senator Boxer. We have this from EPA. The staff got this 
from the docket, by reading the docket. So we were able to get 
it.
    So let me tell my colleagues that 29,094 were a letter with 
this very complicated message: ``Dear EPA Administrator 
Johnson, As you know, cars and SUVs are a massive source of 
global warming pollution. To protect future generations, States 
must be allowed to fight global warming. I urge you to give the 
States the green light to put cleaner cars on the road. Grant 
the Clean Air Act waiver to California and all the other States 
that are requesting them. Sincerely.'' There were 29,000 of 
those, very complicated message, very difficult.
    Then you have another letter here. It is longer, but not 
that long. It is one page: 24,000 of those; 24,172. I would ask 
unanimous consent to place this letter into the record. It is 
one, two, three, four paragraphs long. The main one says, ``I 
am counting on you to protect us from the real threats posed by 
global warming, and again urge you to immediately grant 
California the waiver it needs to move forward with this very 
important step to limit global warming pollution.''
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T1979.127
    
    [GRAPHIC] [TIFF OMITTED] T1979.128
    
    Senator Boxer. So right there, 54,000 comments. So let's 
not give an impression that there were 60,000 handwritten 
letters that your staff had to go through, when in fact two 
letters, mass mailings, made up for 54,000 of the 60,000. I 
think that is an important point.
    Now, what did you hear from others in the Administration 
about this waiver? How many people contacted you from across 
the Administration to talk to you about this waiver?
    Mr. Johnson. I have routine conversations with my cabinet 
colleagues on a wide range of issues.
    Senator Boxer. I am not asking about that. I am asking 
about this, about the California waiver. This is a big deal. 
The Supreme Court called you out and forced you to take action 
on the waiver. How many people in the Administration, executive 
and others, talked to you about this waiver?
    Mr. Johnson. Again, I routinely have conversations with my 
cabinet colleagues.
    Senator Boxer. So how many of them brought this up?
    Mr. Johnson. I don't have any recollection of any 
particular number, Madam Chairman.
    Senator Boxer. Do you have any recollection of anybody 
talking to you about this?
    Mr. Johnson. As I said, I have raised the issue with a 
number of my cabinet colleagues, in giving them an update as to 
the status of the petition.
    Senator Boxer. Did anyone in the White House contact you on 
this? Or the Vice President's office or OMB?
    Mr. Johnson. Not to my recollection.
    Senator Boxer. So you never discussed the California waiver 
with anyone from the White House?
    Mr. Johnson. No, I didn't say that. I said in my 
recollection, I don't recall anybody contacting me.
    Senator Boxer. Did you contact them?
    Mr. Johnson. As part of good government, I tell them what 
is the status of major actions that are before the Agency to 
give them an update. That is what I do on petitions, on 
regulations, and----
    Senator Boxer. Did you discuss this waiver with members of 
the Administration in the White House, the Vice President's 
office, or the OMB? Did you discuss this?
    Mr. Johnson. I have routine discussions.
    Senator Boxer. Well, first you said you had no 
recollection. Now you say you contacted them, and now what are 
you saying?
    Mr. Johnson. You asked me had they contacted me first.
    Senator Boxer. No, no, no. I said did you have----
    Mr. Johnson. I said I had no recollection, and then you 
asked me had I contacted, and I said yes, I have routine 
conversations.
    Senator Boxer. And I asked you, did you speak with anyone, 
whether they contacted you, you contacted them, it was a 
miraculous bumping in the hall. Did you discuss the California 
waiver with someone from the President's office, the Vice 
President's office, OMB?
    Mr. Johnson. I routinely have conversations with members of 
the White House.
    Senator Boxer. The answer is yes, then. What did they say? 
What was their reaction? How did they feel about the waiver?
    Mr. Johnson. I don't recall their reaction because I was 
giving them an update of the status of this action and a lot of 
other actions before the Agency.
    Senator Boxer. OK. They didn't respond?
    Mr. Johnson. No. They understand that the responsibility 
for addressing and making a decision on the waiver rests with 
me as Administrator and the Clean Air Act.
    Senator Boxer. So they never gave you an opinion?
    Mr. Johnson. I don't recall whether they did or didn't.
    Senator Boxer. OK. Did the DOT ever contact you and ask you 
to extend the waiver, to extend the deadline for making this 
decision?
    Mr. Johnson. I contacted the Secretary of the Department of 
Transportation as part of routine conversations that I have. I 
contacted her before the public comment period ended.
    Senator Boxer. What would she have to do with this?
    Mr. Johnson. Well, the reason why I contacted her was that 
I was under the impression that people were going to be asking 
the Agency for an extension of public comments. We had two 
letters in asking us for an extension. My inclination was to 
deny that request, and I contacted her before the close of the 
public comment period to say that I was inclined to deny the 
request for an extension of the public comments; that my staff 
had checked and was not aware of any other letters coming in 
from Members of Congress; was she aware of any letters or 
requests, but that I was inclined.
    Not hearing any, the next day I directed my staff to deny, 
and then a day later letters went to the two people requesting 
an extension, denying them the request for an extension. So we 
didn't extend the comment period.
    Senator Boxer. So just to wrap this up, and then I will 
turn to Senator Inhofe. So just to wrap this up, no one ever 
contacted you. You contacted them, meaning the White House, the 
Vice President's office, the OMB, the DOT. You contacted them 
just to give them an update on this issue, but no one ever 
contacted you and you don't recall anybody in the White House 
giving you their opinion on the waiver.
    Mr. Johnson. I don't recall anyone contacting me. I do 
recall making contacts to others because as I said, I have 
routine conversations with----
    Senator Boxer. You keep repeating this. I am just trying to 
see, and tell me if I am saying this in a fair way and a just 
way.
    Mr. Johnson. OK.
    Senator Boxer. All right. Nobody ever contacted you from 
the White House, the Vice President's office, the OMB, or the 
DOT? You contacted them just to update them and you don't 
recall anything they said to you about the waiver?
    Mr. Johnson. To the best of my recollection, again, I have 
a lot of conversations with members of the White House, a lot 
of conversations. I said I do recall me making contact 
because----
    Senator Boxer. I just said that. So did I say it in a fair 
way? I will repeat it the last time and then I will stop, 
because I would like a yes or no.
    Is this a fair analysis of what you have told us? That no 
one ever contacted you to give an opinion on the waiver, or to 
tell you to slow it up or anything; no one from the 
President's, Vice President's, OMB; no one from the DOT. But 
you did contact them just to fill them in on what was 
happening, and the waiver was one of the issues, but you don't 
recall anything that they said. You just briefed them, but they 
never made any opinion. Yes or no?
    Mr. Johnson. If you would add ``to the best of my 
recollection,'' then I would say ``yes.''
    Senator Boxer. Well, could you try to today go through some 
of your notes of these conversations, because if your 
recollection is not right, I need to know that because this is 
clear. The Supreme Court has said this is your duty and your 
job and it shouldn't be politicized.
    Senator Inhofe.
    Senator Inhofe. Well, Madam Chairman, I am not sure I can 
use a whole 11 minutes, but I will try.
    Senator Boxer. You can have as much time as you want.
    Senator Inhofe. Yes, I know. I know that.
    Well, how many issues do you deal with, Mr. Administrator? 
You are a hands-on guy, unlike most Administrators, you came up 
through the ranks. You know your issues. About how many 
different issues do you have to deal with? I know I have a lot 
of them with you.
    Mr. Johnson. Senator, I appreciate that, and I am very 
proud of my 26 years of Federal service with EPA. I literally 
deal with thousands of issues across the Agency.
    Senator Inhofe. Do you intentionally refuse to deal with 
the Administration and let them know that we have significant 
things going on in this very important Agency? Don't you deal 
with them on every significant issue? I would think you would.
    Mr. Johnson. Senator, it is my belief and certainly my 
practice over the past 26 years to keep my superiors informed 
of major issues before the Agency. I have done that and will 
continue to do that as long as I am Administrator.
    Senator Inhofe. I have to say this, that you certainly have 
advised me many times more than I want to be advised. So you 
are always responsive, and I do appreciate that. I would be 
disappointed if you didn't have these contacts.
    I would only make the one comment that the Chairman talked 
about several times, the transportation sector. It was very 
interesting. I want to remind the record here that the United 
Nations came out in their report and said, Senator Carper, that 
livestock emissions exceeded the entire transportation sector. 
That is kind of interesting.
    One of the witnesses, Mr. Administrator, at our last full 
committee hearing wrote an article based on his testimony and 
received a threat shown on this chart. Put the chart up. I am 
going to read this and I want everyone to listen: ``It is my 
intention to destroy your career as a liar. If you produce one 
more editorial against climate change, I will launch a campaign 
against your professional integrity. I will call you a liar and 
a charlatan to the Harvard community of which you and I are 
members. I will call you out as a man who has been bought by 
corporate America. Go ahead, guy, take me on,'' signed by 
Michael Eckhart, the President of the American Council on 
Renewable Energy.
    Let me just mention something here, an observation. I 
certainly hope the Chairwoman would read this. I will read it 
again after she is through talking, since I have 11 minutes.
    This is what my observation is, and this has nothing to do 
with a question to you. Every time the new scientists come up, 
the ones who are on the other side of this issue, and say, wait 
a minute, it looks like now like anthropogenic gases--methane 
and CO<INF>2</INF>--are not the primary causes of climate 
change. Every time this happens, since the science isn't there 
and the facts are not there and the truth isn't there, we have 
all these people who have a stake in this thing.
    I remember so well when Heidi Cullen of the Weather 
Channel--and I love her, I watch her program because I find it 
to be very interesting--if it shows that the trend of science 
is refuting the fact that anthropogenic gases are a primary 
cause of climate change, she is out of business. Her whole 
weekly program is gone. Her career is gone.
    In this case, here is a guy that is threatening what he is 
going to do. Now, the reason--and I am going to read it again 
when the Chairman is available--but I have found--and put the 
other chart up, will you?--that the EPA is a part of the 
American Council on Renewable Energy. Are you aware of that, 
Mr. Administrator?
    Mr. Johnson. Yes, I am, that we are a part of the American 
Council on Renewable Energy.
    Senator Inhofe. Does this bother you?
    Mr. Johnson. Certainly, the----
    Senator Inhofe. This guy is the president. So I assume if 
you are a member of this, then you support the American Council 
on Renewable Energy. Is that correct?
    Mr. Johnson. As I said, we are a member and we support 
renewable energy. I was not aware of this quote or this action.
    Senator Inhofe. What kind of response do you have, being 
the Administrator of the EPA and finding out that you support 
this organization, where the man is making a statement like 
this?
    Mr. Johnson. Well, statements like this are of concern to 
me. Certainly, as head of the EPA, we are involved with many 
organizations, and I certainly am a believer in cooperation and 
collaboration across all sectors. This is an area that I would 
look into for the record.
    Senator Inhofe. That is what I want you to do. I don't 
expect you--look at the number of organizations the EPA is a 
part of. Many of them are very good organizations and there 
probably are people on the board, if the American Council on 
Renewable Energy has a board of directors, who would be very 
offended by what their president is saying.
    But my point is, this is so typical of these hate-filled 
people who threaten and use vile language. I was called a 
traitor by one of the extreme left. This happens when you lose 
your case, and this is the best evidence of it.
    So I would like to have you look into this and make an 
evaluation. Talk it over with your people and see if it is 
appropriate for you to be a part of an organization that is 
headed up by a person who makes this statement. OK?
    Madam Chairman, since you were busy while I read this 
statement, I am going to read it again so that you can have it.
    Senator Boxer. I heard it, and I talked to your staff about 
it.
    Senator Inhofe. I know, but you didn't hear it because you 
were talking. I am not criticizing that you were talking. I 
talk to my staff all the time, too, then I want to get things 
repeated.
    Senator Boxer. You can read it any time you want, but I 
know what he said, but go ahead.
    Senator Inhofe. He said, ``It is my intention to destroy 
your career as a liar. If you produce one more editorial 
against climate change, I will launch a campaign against your 
professional integrity. I will call you a liar, a charlatan to 
the Harvard community of which you and I are members. I will 
call you out as a man who has been bought by corporate America. 
Go ahead, guy, take me on.''
    Now, Mr. Administrator, the waiver request strikes me as a 
backdoor effort, and I really need to have some education on 
this because I am fairly new to this issue, even though I have 
been to the hearings when we have discussed it. As I said in my 
opening statement, you have been acting very expeditiously on 
this issue.
    But the waiver request kind of looks to me like a backdoor 
attempt to usurp the Congress's role as setting CAFE standards, 
because if a handful of States are able to come up with 
standards that are different from the rest of the United 
States, what is going to be the response in terms of CAFE 
standards? Or better yet, should we not be talking to the 
automobile industry as to whether or not they can make vehicles 
with different standards, different emission standards? Does it 
look to you like this could be a backdoor way of usurping 
Congress's role in setting the standards?
    Mr. Johnson. Well, Senator, there are two sections of the 
Clean Air Act--section 209, which is specific for California 
waiver petitions, and in section 209, there are three criteria, 
any one of which if those criteria are triggered, then the 
Agency is to not grant the waiver. But it is part of the law, 
part of the Clean Air Act specific to California. And then as 
also part of the law, that other States can follow along after 
California. Of course, under section 202 of the Clean Air Act, 
that deals with mobile source emissions in general.
    Senator Inhofe. But it says they can, but it doesn't say 
they must. OK. That explains it a little bit.
    In my opening statement, I went over the very elaborate 
system that you have in doing what the law requires you to do. 
I know that there are many of my very good friends who have at 
times criticized the EPA for not taking long enough, not being 
deliberative enough. What comes to my mind is the Clear Skies 
legislation. It was stalled and stalled and stalled, and the 
excuse was that you have not been deliberate enough. You 
weren't there at that time. Well, you might have been. But 
anyway, I think you have done your job.
    Last, and I am going to make sure I get this in, I have to 
have this question in there, the question I would have is, how 
can California assess a maximum feasible fuel economy levels to 
be so radically different than those made over many years by 
the Department of Transportation in the CAFE program? The 
Department of Transportation uses detailed data from automobile 
manufacturers, while California Air Resources Board, which I 
will refer to as CARB in this question, used a study by the 
Northeast States Center for Clean Air Future as a basis for its 
regulation.
    CARB requires about 44 mpgs for cars and 27 mpgs for heavy 
trucks by 2016. The California car fuel economy requirement is 
60 percent higher than the CAFE standards. No. 1, don't you 
think that Federal regulators at the Department of 
Transportation, after years of working on fuel economy and with 
mountains of industry confidential data, know more about it 
than CARB and the nonprofit group that CARB worked with, No. 1? 
And No. 2, how can CARB's mistaken feasibility assessment be 
corrected?
    Mr. Johnson. Senator, I understand that the issue of CAFE 
or the EPCA, which stands for the Energy Policy and 
Conservation Act, that DOT and NHTSA are under, is currently in 
litigation. This issue is in a case before the Ninth Circuit. 
So once the Ninth Circuit makes its decision, in the meantime 
we are continuing to review and evaluate the voluminous 
detailed comments, unprecedented number of comments, on the 
California petition.
    Senator Inhofe. I think it is a reasonable question to ask. 
I thank you very much for your very good answers.
    Senator Boxer. Thank you, Senator Inhofe.
    Senator Lautenberg, you have 10 minutes.
    Senator Lautenberg. I think that would cut me short, Madam, 
by about 10 minutes, but that is all right.
    Senator Boxer. Well actually, I took 11 and he took 11. I 
am giving you 10.
    [Laughter.]
    Senator Boxer. But you could have 11 if you want.
    Senator Lautenberg. It is not important, but the 
discreditation that our distinguished friend and colleague 
gives to comments made by others just consumes more time than 
it should.
    Mr. Johnson, I want to say this to begin with. First of 
all, you are a person with substantial credentials. You have 
been in public service for a long time. I know that you come 
with knowledge. That doesn't mean that we can agree and it 
doesn't mean that you are not at fault in some instances.
    But in terms of the name-calling and things like that, I 
don't think it does us any good, and I am sorry Senator Inhofe 
isn't here because we all get people saying nasty things about 
us no matter how good we are in public life. It happens. You 
have to believe that you are right, and very frankly, 
unfortunately I believe that you are really wrong on this 
issue. I think that instead of being excessively fair, that 
this amounts in my view to foot-dragging.
    You heard from the Chairman when she asked about 
intervention from other places--the Administration and other 
departments--is it with some degree of shock that we look at 
backup material and look at the kind of campaign that the 
Department of Transportation put on. Now, do you think it is 
appropriate that, one, executive-level agencies lobby Members 
of Congress on another agency's regulations? Do you think that 
is acceptable?
    Mr. Johnson. Well, Senator, I do not believe that it is 
legal for myself to lobby Members of Congress, so that is my 
own belief and I believe what the regulations dictate. I 
certainly, again, believe that it is also good government for 
Members of Congress to communicate with one another. I think it 
is good government for members of the Administration, certainly 
cabinet members, to talk with one another. Certainly I think 
that it is responsible management for me to keep other members 
of the Administration apprised of the status of important 
decisions.
    Excuse me, sir. I also believe that it is important that it 
be recognized that in certainly the statutes and the Clean Air 
Act, the responsibility solely lies with me as Administrator to 
make a decision. I hold that responsibility in great 
seriousness.
    Senator Lautenberg. I know that you do, but we are talking 
about a forever delay here, 18 months when the atmosphere is 
being poisoned. Despite Senator Inhofe's disbelief, as I hear 
it, that climate change, global warming is really taking place. 
He called it openly and regularly a hoax. So now we have 
``hoax'' storms and ``hoax'' droughts and ``hoax'' hurricanes 
and ``hoax'' tornadoes.
    Those hoaxes really pain people in lots of ways. It places 
us in a position where we are ignoring the threat to our 
environment and the health and well being of my grandchildren 
and grandchildren across this country. It is pitiful that this 
has become a matter that is being shaped behind closed doors in 
many ways.
    We have message here, I have, and this is common knowledge, 
I think. It is in the Federal record. But from Michael 
Harrington, NHTSA, and also from Simon Gross.
    This is from DOT--I am sorry, NHTSA. They say that to the 
Members, Senators with the really big facilities, we need to 
call those small distribution centers or anything. The bill 
should reach out to the Governor's offices in Tennessee, South 
Carolina and Missouri, Delaware, Kentucky, Indiana and Texas, 
about what is taking place in terms of the warning that this 
legislation is about to take place. It reads, and this is in 
the Senate Federal Register, April 30, 2007. I am not sure if 
you are aware, but EPA is currently considering a petition from 
the State of California to set its own CO<INF>2</INF> 
standards.
    If California were to receive this waiver, this could lead 
to patchwork of regulations on vehicle emissions which would 
have significant impacts on the light truck and car industry. 
EPA is currently receiving comments and the docket is open 
until June 15. However, tomorrow the EPA Administrator will 
decide whether or not to extend the deadline.
    We are engaging you to see if your boss would be--and this 
is sent to the congressional staff--submitting comments or 
reaching out to your Governor's office for them to submit 
comments to the docket. This could greatly impact auto 
facilities within your District.
    So it is not really focused on whether or not we are taking 
care of the environment. Mr. Johnson, the one thing I don't 
want to see happen, and I am sure no one here wants to see 
happen, is the demise of our automobile industry. But it ought 
not to be juxtaposed compared to the damage, the jeopardy that 
faces our people by this constant climate change that we are 
facing.
    There are other agencies. I don't know whether you have 
seen the report that was done for the Defense Department. It 
was done a few years ago, in October 2003. It talks about the 
substantial evidence to indicate that significant global 
warming will occur during the 21st century. There are all kinds 
of memos that talk about what the impacts of global warming may 
be. One of them is from a report by the Intergovernmental Panel 
on Climate Change at the U.N. This report by the 2,500 
scientists who are members of this panel, most of the observed 
increase in globally average temperatures since the mid-20th 
century is very likely due to the increased--and ``likely due'' 
is described as 90 percent--of the observed increase in 
anthropogenic greenhouse gas concentrations.
    All of this just says to us, at least it says to me and I 
assume some of my colleagues, that this foot-dragging is 
unacceptable by any measure, Mr. Johnson. I think that it would 
be not only good faith by you as a credible leader of the EPA 
to try to find ways to accommodate this waiver request, instead 
of delaying it and delaying it and delaying it.
    Now, is it true that the request was in 18 months, for the 
waiver?
    Mr. Johnson. Senator, I would respectfully disagree with 
foot-dragging. The request for waiver came in December 21, 
2005. There was a series of communications in May 2006, October 
2006, a couple of communications in December 2006. Then in 
February 2007, we informed California of--by that time, the 
Supreme Court had made a decision that they were taking cert 
and that they would be considering it. We notified California 
that we were going to wait the decision of the Supreme Court. 
The Supreme Court decision was made on----
    Senator Lautenberg. Mr. Johnson, I don't mean to be rude to 
you, honestly. But those details are secondary to whether or 
not you think there is a matter of urgency to get this waiver 
agreed to.
    Mr. Johnson. Well, Senator, I agree that there is an 
urgency to consider the voluminous comments that we received.
    Senator Lautenberg. So that is your primary urgency? You 
are saying that the mechanics are the most important thing. Is 
there an issue that is bigger for the moment than the 
mechanics?
    Mr. Johnson. Global climate change is a serious issue.
    Senator Lautenberg. How serious?
    Mr. Johnson. A very serious issue and we have a 
responsibility under the Clean Air Act to process the waiver 
request in I believe a timely and deliberate fashion. Senator, 
the Government, and certainly the USEPA, has never considered 
regulating carbon dioxide. So this is the first time. Putting 
aside all of the write-in campaign which we have to consider, 
but putting aside just that----
    Senator Lautenberg. Well, we hard that actually that write-
in campaign was----
    Mr. Johnson. There are still thousands of substantive 
comments. In fact, just 2 days ago we received another 800 to 
1,000 pages of technical comments by the State of California. 
It takes time for our staff to do a thorough review.
    Senator Boxer. Senator, I am going to give you another 3 
minutes. It is fine. I want to give you another 3 minutes.
    Senator Lautenberg. Thanks very much, Madam Chairman.
    I just want to try to get to an understanding of this. Why 
we don't see the urgency to do something about climate change, 
and let it be determined at some point you cutoff the debate. 
At some point, you close down the commentary. So the fact that 
you have another 800 pages, has anybody in your office looked 
through those 800 pages?
    Mr. Johnson. We have staff that are reviewing comments from 
the State of California and we are looking at them now, 
evaluating them now.
    Senator Lautenberg. Can you imagine, Madam Chairman, that 
California is asking for a delay in any way of this?
    Senator Boxer. California is going to sue to get action.
    Senator Lautenberg. Right.
    Senator Boxer. The other States are standing behind 
California.
    Senator Lautenberg. I submit that there is so much time 
passing by, and once again I use the term ``foot-dragging.'' I 
mean it, and I gave you my views of the respect that you earn 
as a professional, and I know you have a tough assignment. 
However, when we look at what is happening in our future, what 
is happening in our past, what is happening, as I mentioned 
earlier, the year 2006 being the hottest year on record, up 2.2 
F.
    Going through, if this was a fire, action would be taken. 
We are facing lots of dangerous situations in our world, but 
the Administration thinks that in order to quell the danger, he 
ought to put more troops in Iraq, and that puts them at risk.
    Any delays here put our society at risk. I use my 
grandchildren kind of euphemistically here, because if I take 
care of my grandchildren, I take care of everybody's 
grandchildren. That is a mission of mine as a United States 
Senator. I urge you to try and expedite this request for waiver 
and get on with it. You have the right to close down the 
comment period. At some point you are going to have to say no, 
we are not taking any more. We have enough data. We have a 
court decision to support your responsibility.
    Frankly, if you see any antagonism here it is not against 
you personally, but it is against what you are doing by 
permitting this delay to continue.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Carper.
    Senator Carper. Administrator Johnson, I earlier in my 
opening statement said I was going to telegraph my pitch. 
Senator Boxer just said California is going to sue in order to 
get expedited action. I am not prepared to sue in order to get 
clearly a fuller response, a more robust response to my letter 
of May 10, but I can appreciate her disappointment with what 
she and certainly folks in California and many on this 
committee believe is just not the kind of expeditious response 
that we would like to see to the request from the Governor of 
California.
    Others have spoken to the need to hasten your response to 
California. I won't belabor that. I suspect this is not much 
fun to sit here and to be on the receiving end of these kinds 
of exchanges. So I would just urge you and your colleagues to, 
given all that you have to review, to still expedite your 
consideration of California's request.
    Before you fully respond to their request, I want to hear a 
fuller response to mine. I am not the Governor of California, 
but I used to be the Governor of Delaware. I have asked EPA in 
this letter that I mentioned earlier to really take three 
specific steps, which we believe, which I believe will better 
inform EPA as you contemplate the best methods for reducing 
greenhouse gases.
    One of those dealt with developing a mandatory inventory 
and registry of major greenhouse gas sources in the United 
States. The second dealt with helping us to deploy new clean 
coal technology. And the third was to help us develop standards 
and practices on how best to measure and verify emission 
offsets for biological and agriculture carbon sequestration.
    I have gotten a response, but it was a disappointing 
response. I said that to you before privately and I will say it 
to you again. We are looking for a real response. We are 
looking for real engagement. We have just not gotten it. I 
don't think that is asking too much. These are three things 
which we think could not just help EPA, not just help us, but 
help our country.
    I would urge you to take seriously what I am saying. I am 
not one who pounds on tables, but I am very persistent. I will 
continue to be persistent on this one.
    Mr. Johnson. Senator, again thank you for your leadership, 
and those issues which you highlighted in your letter are very 
important. Again, I want to apologize for any miscommunication, 
and then I want to make sure that we are fully responsive to 
your letter because all three of the issues are very important, 
both in dealing with inventory versus registry and what does 
that mean. I know that a number of States are moving forward 
with that, and certainly there is conversation at the national 
level with that regard.
    Of course, carbon sequestration and storage, both in 
promoting the development of that, but also the important 
aspect of making sure that we, if you will, inject that carbon 
in a safe and environmentally responsible way is very important 
to us. Of course, we have recently issued some guidance, which 
is the precursor to regulation, on that issue, and we look 
forward to working with you on that.
    Of course, as we discuss various methods of crediting or 
banking and the importance and opportunity for sequestration 
such as in agriculture, that is another area that is very 
important to us. We will have a more fulsome response.
    Senator Carper. Thank you.
    Madam Chair, I don't know if you caught it, but when the 
Administrator was speaking to us during his testimony, he 
talked about the Twenty in Ten plan. The second paragraph 
really caught my eye, because it relates closely to legislation 
you and I supported that was passed in the Senate about a month 
ago with respect to increasing fuel efficiency performance by 
cars, trucks and vans in this country.
    What we have passed, Mr. Administrator, as you may know, we 
passed legislation in the Senate by a fairly broad margin that 
calls on folks, companies selling cars, trucks and vans in this 
country over the next dozen or so years to be able to achieve 
significantly greater fuel efficiency. We have not said that 
all cars or all trucks have to have the same result, but if you 
have, say, 10 companies selling cars and trucks and vans in 
this Nation, over the next dozen or so years, those who are 
selling small cars they have to meet the same standards set by 
NHTSA, worked out with the car companies.
    If you are a small car company in this country under our 
bill, your small cars are going to have to meet the same fuel 
efficiency requirements of which these companies are being 
produced by. Similarly, if a company is producing mid-size 
cars, they have to come up and meet the same fuel efficiency 
requirements. For full-size cars, it is different, but for all 
the companies, they have to meet the same different fuel 
efficiency standards.
    For companies that are building light trucks and SUVs, they 
have to meet the same standard regardless of who is doing it. 
We came up with that approach in part at the behest of the 
domestic auto industry. They said don't allow companies that 
are currently building a lot of fuel efficient cars to be able 
to go out and build highly fuel inefficient light trucks and 
SUVs, minivans. So what we did is we developed an attribute-
based system. We called for NHTSA, which is a unit of the 
Department of Transportation as you know, to work with the car 
companies to figure out what attribute we should consider; what 
makes a small car a small car or a large SUV a large SUV. Is it 
weight? Is it footprint, you know, the wheel base? Figure out 
what the attributes are and use those standards.
    We called for an overall fleet average of about 35 miles 
per gallon by 2020. It doesn't mean every car company is going 
to have 35 miles per gallon in their fleet, but overall for the 
whole fleet it will be 35 miles per gallon.
    We had in our legislation a requirement that said beyond 
2020, fuel efficiency has to increase by 4 percent per year. 
The car companies pushed back very hard against that. We 
changed that in the end to say that beyond 2020, fuel 
efficiency has to go up by whatever NHTSA, working with the 
companies, determines is maximum feasible technology, maximum 
feasible technology.
    So what I read here in your testimony, it says fuel 
efficiency standards for cars will be increased substantially 
beginning in 2010, and for light trucks beginning in 2012. In 
2017, we aim to reduce projected annual gasoline use by so 
much. What are you calling for in terms of reductions, annual 
reductions? Is it 4 percent? I thought I heard 4 percent in 
your testimony.
    Mr. Johnson. Yes, Senator. There are really two tracks. One 
is the legislative track, which is the Twenty in Ten, which we 
are suggesting up to 4 percent per year. That is the 
legislative track. As also mentioned in my testimony, we are 
developing regulations to regulate greenhouse gases under the 
Clean Air Act from new automobiles. The two areas that can 
achieve that, one is through the type of fuel put into the 
engine; and then the second is the engine efficiency, or if you 
will, the CAFE standard.
    So in a parallel process, we are developing regulations, 
and of course important considerations such as technical 
feasibility and the time to implementation become key factors 
in drafting a regulation under section 202 of the Clean Air 
Act.
    Senator Carper. I don't know if you are aware of the 
Administration's response to what we have passed in the Senate, 
but if you are, would you share that with us?
    Mr. Johnson. I would be happy to.
    Senator Carper. Now?
    Mr. Johnson. I would be happy to for the record.
    Senator Carper. All right.
    Madam Chair, I might be wrong, but as I look at those 
numbers, 4 percent per year between now and 2020, we would have 
a fuel standard for the fleet, we would have a fleet average 
that would probably be 35 miles per gallon or so. If what I am 
hearing is that the Administration pretty much agrees with us 
on the goal, that is good news. That is good news, and we are 
still getting a fair amount of push-back from our friends in 
the auto industry, especially the domestic side.
    But I think they can make this goal, especially if we will 
help them, if we will help them with investments in basic R&D 
like new battery technology for these flex-fuel plug-in 
hybrids. We will help them by using the Government's purchasing 
power to commercialize new technologies as they come to market, 
and help make them successful, of if we use our taxing powers 
to incentivize folks to buy more energy efficient cars, whether 
it is plug-in hybrids or low-emission diesels, that we can play 
a role in helping the industry meet that goal.
    Any closing comment on this point?
    Mr. Johnson. I would just say I again look forward to 
working with you on the legislative piece. As I mentioned, we 
will have a proposed regulation addressing fuel efficiency and 
the type of fuel by the end of this year.
    Senator Carper. All right. Good. Thanks very much.
    Mr. Johnson. Madam?
    Senator Boxer. Yes, if I just might. I think, Senator 
Carper, your questioning was very good. I would urge you to, 
and I know you realize this, these 13 States want to do it 
yesterday. They are ready to go. And that is why the Governors 
are planning to sue.
    I want to point out how bipartisan all of this is. At the 
time that the 13 States got together, six of the Governors were 
Republicans. Now we have five of them, because one of them was 
replaced by a Democrat. But it is an amazing thing how 
bipartisan this issue is when you get away from here. You know?
    Senator Cardin, we do need to move, because we are coming 
up with a vote fairly soon.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Administrator Johnson, it is nice to have you back before 
our committee. I welcome you.
    I want to sort of just question you on the impact that 
today's hearing has on the Chesapeake Bay on water quality, 
because I think most people look at the air quality issue and 
don't realize the direct impact it has on the quality of our 
waters and bays and our streams. It is estimated that one-third 
of the nitrogen problem in the Chesapeake Bay comes from air 
pollution. The No. 1 source of the air pollution are the clean 
car issues that we are talking about today.
    So my question to you is, have you looked at the benefit of 
the standards on air regulations that California wants the 
waiver for, what impact that would have on the quality of 
waters such as the Chesapeake Bay?
    Mr. Johnson. Well, Senator, under the California petition, 
we need to evaluate the California situation, and then other 
States, as you know, including Maryland, if they chose to 
follow the California standard, then could, if we indeed 
granted the waiver.
    With respect to the Chesapeake Bay, we have actually been 
investing, and I know that there is some study continuing to go 
on that EPA is participating in on the effect of global climate 
change on the Chesapeake Bay specifically. I am not aware of 
the current status of that specific research and development, 
but I am aware that it is going on.
    Senator, if I could, and Madam Chair, if I could, with 
respect I would like to clarify one thing that I said, and I 
may have misspoke when answering a question about the legal 
issues pertaining to executive branch communications to the 
Hill. As you know, such communications generally are not 
prohibited, and of course our respective branches can 
communicate. So I just wanted to make that clear for the 
record.
    Senator Cardin. I don't want to leave quite the issue yet 
on the bay, because I think one of the reasons why our 
legislature and Governor wanted to come under a similar waiver 
as California is the impact that air pollution is having on the 
bay. We have gone to extraordinary lengths, with the help of 
the Federal Government, with EPA's involvement, with private 
sector involvement and multi-State efforts to clean up the 
Chesapeake Bay. We have made progress, but not enough progress. 
I think recent reports show that there is still a huge 
challenge ahead of us.
    We look at the waiver as one important step forward in 
dealing with the Chesapeake Bay. I would just urge you to be 
prepared. Of course, we all are hoping that we are going to get 
action on the California waiver. I would really hope that we 
would have had it by now. In my opening statement I made that 
point. But when you do rule on that, we want to make sure that, 
assuming it is affirmative, that a State like Maryland can move 
forward aggressively because of the multiple impact it has on 
our environment.
    I would just urge you to be up to speed on the impact that 
the air quality is having on waters around our country, 
including the Chesapeake Bay.
    Let me also, if I might, move to the issue that I mentioned 
in my opening statement, and that is the recent analysis 
conducted by the National Capital Regional Transportation 
Planning Board for the Metropolitan Washington Council of 
Governments. As I noted, the report details the expected growth 
in greenhouse gas emissions and the positive benefits that 
would result from the adoption of the California car rule in 
this area.
    Are you familiar with this study, called ``CO<INF>2</INF> 
Emissions for Cars, Trucks and Buses in the Metropolitan 
Washington Area''?
    Mr. Johnson. Generally, I am, but I have not personally 
read the study.
    Senator Cardin. Were you surprised to learn that the 
Transportation Planning Board estimates that the California car 
rule would result in a four ton reduction in CO<INF>2</INF> 
emissions by 2020?
    Mr. Johnson. Yes, that is precisely part of our evaluation 
of the three criteria under section 209 is to evaluate the 
three criteria which one of them is compelling in extraordinary 
circumstances, and is it consistent with section 202 of the 
Act, and is it in the aggregate as protective of public health 
and welfare as the Federal standards.
    So as part of that evaluation, we will be looking at 
literally those thousands of pages of technical analysis that 
have been submitted to the Agency.
    Senator Cardin. Well, I encourage you to do that, obviously 
as quickly as possible, because a four ton reduction is a 
substantial amount and the area already is a nonattainment area 
for the 8-hour ozone standard. So this would have a major 
impact in trying to meet attainment, wouldn't it?
    Mr. Johnson. It is true from our scientific analysis that 
greenhouse gas emissions can have an effect, and in fact 
increase ozone.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thanks, Senator.
    Administrator Johnson, under the Clean Air Act, what is 
EPA's mission?
    Mr. Johnson. Under the Clean Air Act, that is ultimately to 
protect public health and the environment.
    Senator Boxer. Yes. As a matter of fact, in the opinion of 
the court, they stated that EPA has been charged with 
protecting the public's health and welfare. That is your role. 
That is your job.
    Mr. Johnson. Yes.
    Senator Boxer. So keeping that in mind, which I am sure you 
do, I want you to answer these questions. Your role is to 
protect the public health and welfare.
    Is the Bush administration opposed to granting California's 
waiver?
    Mr. Johnson. We have made no decision on the California 
waiver and we are going through a very deliberate process to 
evaluate all the comments. I will be making a decision by the 
end of the year.
    Senator Boxer. So the Administration--I am talking about 
the Administration--is the Bush administration, you say EPA 
hasn't made a decision yet as to whether to grant it or not. Is 
the Administration opposed to granting this waiver?
    Mr. Johnson. The Administration recognizes that under the 
Clean Air Act it is the responsibility of the Administrator, 
and it is my responsibility to make an independent decision.
    Senator Boxer. So the Administration is not opposed to it.
    Is the Department of Transportation part of the 
Administration?
    Mr. Johnson. Yes, ma'am.
    Senator Boxer. OK. So let me read you, we got this out of 
an e-mail that was given to employees at the DOT. They were to 
call Members of Congress, and this is what they were to say: 
``I am not sure if you are aware, but EPA is currently 
considering a petition from the State of California to set its 
own CO<INF>2</INF> standards. If California were to receive 
this waiver, this could lead to a patchwork of regulations on 
vehicle emissions which would have significant impacts on the 
light truck and car industry.
    The EPA is currently receiving comments and the docket is 
open until June 15. However, tomorrow the Administrator will 
decide whether or not to extend the deadline. We are gauging to 
see if your boss would be interested in submitting comments or 
reaching out to your Governors office for them to submit 
comments to the docket, since this could greatly impact the 
auto facilities within your District.''
    Then it says, and remember what you said, DOT is part of 
the Administration and the Administration knows this is all in 
your shop, this is what it says in this e-mail: ``If asked our 
position''--that is DOT--``we say we are in opposition of the 
waiver.''
    So I am putting this in the record. I am stunned that you 
would sit here through all this time and act as if you weren't 
aware of this. Do you believe that it was appropriate for DOT 
to lobby Congress to oppose the waiver and to have in the 
script to say that they opposed the waiver? Do you think that 
this was appropriate?
    Mr. Johnson. Senator, I have to defer to the Department of 
Transportation on what e-mails they may or may not have----
    Senator Boxer. I am not asking you that. I am asking you. I 
read to you an e-mail, and I am asking you if it is appropriate 
for this Administration to lobby Members of Congress against 
the waiver, because it says ``if asked our position, we say we 
are in opposition of the waiver.''
    Do you think that is appropriate?
    Mr. Johnson. Senator, it is my responsibility for the 
Environmental Protection Agency and I respectfully defer to the 
Department of Transportation.
    Senator Boxer. OK. Well, let me say this. I read you what 
your charge is. Your charge is not to sit here and say ``I 
can't answer,'' when a member of the cabinet and the whole 
department is lobbying against this waiver. You are responsible 
for the health and welfare of the people of this country. You 
yourself said that is your charge. You sit here and can't 
condemn the fact that this Administration has been lobbying 
Members of Congress against this waiver, which 13 Governors 
want, not to mention the millions of people want. Is that your 
answer?
    Mr. Johnson. Senator, I am not responsible for the 
Department of Transportation and e-mails or conversations.
    Senator Boxer. I didn't say you were. I asked your opinion. 
Do you have no opinion?
    Mr. Johnson. My responsibility is for the Environmental 
Protection Agency.
    Senator Boxer. So you have no opinion.
    Mr. Johnson. I defer to the Department of Transportation.
    Senator Boxer. So that means you think it is OK, whatever 
they do?
    Mr. Johnson. I defer to the Department of Transportation.
    Senator Boxer. If you defer to them, then you think it is 
OK.
    Mr. Johnson. I defer to the Department of Transportation.
    Senator Boxer. I say that you are, with that statement, 
neglecting your responsibility to protect the health and 
welfare of the people. I find it absolutely stunning. I find it 
putting politics ahead of what your job is supposed to be.
    Now, since we already know that DOT officials actively 
solicited Members of Congress and Governors to oppose 
California's waiver, did you know they were doing it before 
they started it? Were you aware of it? Did they ever discuss it 
with you?
    Mr. Johnson. Senator, I have already described----
    Senator Boxer. I am asking you again. Yes or no? Were you 
aware that this was going on, that calls were being made to 
Members of Congress?
    Mr. Johnson. I asked the Secretary of the Department of 
Transportation to check with her constituency to see if anyone 
was going to be requesting an extension, which I stated that I 
was inclined to deny, and then a day later I instructed my 
staff to deny the request.
    Senator Boxer. That is not what I asked you. I asked you a 
simple question. Were you aware that the Department of 
Transportation, members there were instructed with a script, 
were calling Members of Congress and telling them that the DOT 
is opposed to the waiver.
    Mr. Johnson. My awareness was the conversation that I had 
with the Secretary of the Department of Transportation. Other 
e-mail traffic and others, I was not aware of.
    Senator Boxer. So you did not discuss with her that this 
was happening, that these calls were being made to Members of 
Congress?
    Mr. Johnson. I already described what my conversation was.
    Senator Boxer. Did you discuss with her or did she discuss 
with you calls that were being made to Members of Congress to 
get them to weigh in against granting the California waiver?
    Mr. Johnson. In my interest and my requests for the 
Secretary was to find out whether anyone was going to be 
submitting a request to extend the public comment, which I 
stated to her and to you again, that I was inclined to deny, 
which I ultimately did deny.
    Senator Boxer. I am not talking about extension of the 
waiver. I am talking about opposition to the waiver. Did you 
try to stop DOT from soliciting opposition to California's 
request and the 12 other States?
    Mr. Johnson. Again, I don't have any responsibility for the 
Department of Transportation. My responsibility is for EPA and 
evaluating the petition under the Clean Air Act.
    Senator Boxer. If you were talking down the street and you 
saw something that was happening that was bad, would you walk 
over and try to stop it? Or would you say, you know, it is none 
of my business? Because that is the kind of answer you are 
giving me.
    Mr. Johnson. Well, Senator, I am good, but I am not that 
good to be able to oversee every e-mail that goes on in the 
Department of Transportation. So again, I have to defer to the 
Department of Transportation as to what they may or may not 
have said.
    Senator Boxer. This isn't an e-mail. This is a script, and 
you said, as I understand it, you knew nothing about it.
    Mr. Johnson. I did not see a script, no.
    Senator Boxer. OK. And you didn't know that they were 
contacting Members of Congress?
    Mr. Johnson. I said, again, that I asked the Secretary of 
the Department of Transportation to check with her constituency 
to see if Members were going to ask us for an extension.
    Senator Boxer. Who is her constituency?
    Mr. Johnson. I just asked her.
    Senator Boxer. She is not elected. Who is her constituency?
    Mr. Johnson. I asked my staff to check with our 
constituency to see if there was any----
    Senator Boxer. What? You just said you asked her to check 
with her constituency. Who is her constituency? She is not an 
elected official. Who is her constituency?
    Mr. Johnson. Well, I think you are trying to parse terms.
    Senator Boxer. I am asking you a question, sir. You used 
the term. You said you wanted to ask her to check with her 
constituency, and I am asking you, as a human being, one to 
another, who is her constituency?
    Mr. Johnson. There are Members of Congress and Governors 
who particularly are interested in transportation issues.
    Senator Boxer. So Members of Congress and Governors are her 
constituency. Excuse me. Her constituency are the people of the 
United States of America. That is her constituency. But now you 
are saying you asked her to check with them.
    Mr. Johnson. I did ask her----
    Senator Boxer. So this leads me to believe that perhaps 
that is why she did this. She checked with them all right. She 
told them to come out against the waiver. Now, did you talk to 
anyone in the White House about this particular matter, getting 
people to gin up calls against the waiver?
    Mr. Johnson. Again, I did not direct anyone to gin up any 
phone calls against or for the waiver. My communication with 
the Secretary of the Department of Transportation and others 
was to inform them that I was disinclined to extend the public 
comment period, and again, a day later I directed my staff to 
deny that request, and in fact we closed the public comment 
period as was indicated, which was about a week later.
    Senator Boxer. I believe this Administration has already 
decided they don't want to grant this waiver, and the only way 
you can disprove that is to grant it, because everything that I 
have seen leads me to that conclusion. You would have to be 
born yesterday not to see it.
    You have the Administration lobbying against the waiver, 
and you can't comment or call them out on it. You are part of 
this. You are part of this, because you will not speak out 
against this.
    You know, in tough times, you have to take a stand. That is 
wrong, on its face. You talk about her constituency as being 
Members of Congress, Governors. That is not her constituency. 
She works for the people. And that is who your constituency is, 
and that is what you are supposed to do, work for the people. 
When you work for the people, you don't just sit there and say 
nothing when faced with a script where people were lobbying 
against this waiver, which you claim, you know, you are going 
to be very fair about, after saying you have 60,000 different 
messages and we have proven that 54,000 of them were mass 
mailings.
    Now, my own belief is there is going to be a hiding behind 
this Executive order. I just read it again. I would urge 
everyone to read this Executive order: Cooperation among 
agencies and protecting the environment with respect to 
greenhouse gas emissions from motor vehicles, non-road 
vehicles, and non-road engines. That is not a substitute for a 
waiver. Even if you were to produce a regulation on cars, that 
is not a substitute for granting a waiver to the most populous 
State in the Union and 12 other States who are so far out in 
front of this EPA it would make your head spin. It is tragic, 
all this wasted time.
    So what we have here is California puts in a request for 
this waiver. Is it a year and a half ago? A year and a half 
ago. First, EPA hides behind a false premise that under the 
Clean Air Act, EPA couldn't address carbon emissions and 
greenhouse gas emissions. All you had to do is read the Act. 
That was really a terrible decision, wasted time on purpose, 
helping only special interests, not the people; EPA, 
Environmental Protection Agency, not the environmental 
pollution agency.
    So then you stalled while the courts opined. Then the 
courts opined and they are clear. They are clear, and they 
chastise you and this EPA. Now you are hiding behind 60,000 
comments, most of which are form letters for delaying. By the 
way, those are form letters in favor of granting the waiver, 
the vast majority, overwhelmingly in favor of it, but that is 
probably not your constituency, the people.
    I am afraid you are going to next hide behind an Executive 
order that has no teeth in it, really, if you read it. It is 
really weak, with lots of loopholes. You do nothing about the 
DOT. You say nothing here to condemn what went on, which to me 
is tacit approval.
    I go back to what your charge is, and your charge is 
protecting the health and the welfare of my constituents, and 
everyone in this country. That is your job. Your job isn't to 
bow down to the special interests or Karl Rove or anybody else. 
I couldn't be more disappointed in what I have heard today. You 
know, we had to postpone this. I thought well maybe Mr. Johnson 
will have a little more time to think about this. I heard your 
opening statement, with not one word of encouragement. We have 
outrage out there by Republicans and Democrats alike, and this 
Administration gets more isolated day after day after day, 
whether it is on the war or whether it is on domestic policy. 
This is just one more area.
    The people expect their Government to protect them. The 
fact is, it is our children and our most vulnerable populations 
that hurt, and now we have a crisis with global warming. I 
respect Senator Inhofe, but the fact of the matter is the world 
has gone way past where he is. We know we have to deal with 
this. We have States that are taking the lead and you are 
standing in their way. You are standing in their way. You are 
blocking their way and they are mad. Wait until that lawsuit 
comes out. Wait until you hear from them.
    I would just urge you to think about what happened here 
today, to read what your charge is, to go back into history and 
see the great moments in time for our Government. It is when we 
stood and we fought for the people. Those were the great 
moments in history, not when we blocked the way to progress, 
not when we blocked the way to protect public health and the 
environment.
    So it is not a happy day for me, and I am sure it is not a 
happy day for you. But we will keep the pressure on. We are 
going to keep the pressure on. And we hope what you heard today 
will lead you to grant this waiver and get this behind us and 
let our States do what they want to do on behalf of the people.
    Thank you very much, and we stand adjourned.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T1979.001
    
    [GRAPHIC] [TIFF OMITTED] T1979.002
    
    [GRAPHIC] [TIFF OMITTED] T1979.003
    
    [GRAPHIC] [TIFF OMITTED] T1979.004
    
    [GRAPHIC] [TIFF OMITTED] T1979.005
    
    [GRAPHIC] [TIFF OMITTED] T1979.006
    
    [GRAPHIC] [TIFF OMITTED] T1979.007
    
    [GRAPHIC] [TIFF OMITTED] T1979.008
    
    [GRAPHIC] [TIFF OMITTED] T1979.009
    
    [GRAPHIC] [TIFF OMITTED] T1979.010
    
    [GRAPHIC] [TIFF OMITTED] T1979.011
    
    [GRAPHIC] [TIFF OMITTED] T1979.012
    
    [GRAPHIC] [TIFF OMITTED] T1979.013
    
    [GRAPHIC] [TIFF OMITTED] T1979.014
    
    [GRAPHIC] [TIFF OMITTED] T1979.015
    
    [GRAPHIC] [TIFF OMITTED] T1979.016
    
    [GRAPHIC] [TIFF OMITTED] T1979.017
    
    [GRAPHIC] [TIFF OMITTED] T1979.018
    
    [GRAPHIC] [TIFF OMITTED] T1979.019
    
    [GRAPHIC] [TIFF OMITTED] T1979.020
    
    [GRAPHIC] [TIFF OMITTED] T1979.021
    
    [GRAPHIC] [TIFF OMITTED] T1979.022
    
    [GRAPHIC] [TIFF OMITTED] T1979.023
    
    [GRAPHIC] [TIFF OMITTED] T1979.024
    
    [GRAPHIC] [TIFF OMITTED] T1979.025
    
    [GRAPHIC] [TIFF OMITTED] T1979.026
    
    [GRAPHIC] [TIFF OMITTED] T1979.027
    
    [GRAPHIC] [TIFF OMITTED] T1979.028
    
    [GRAPHIC] [TIFF OMITTED] T1979.029
    
    [GRAPHIC] [TIFF OMITTED] T1979.030
    
    [GRAPHIC] [TIFF OMITTED] T1979.031
    
    [GRAPHIC] [TIFF OMITTED] T1979.032
    
    [GRAPHIC] [TIFF OMITTED] T1979.033
    
    [GRAPHIC] [TIFF OMITTED] T1979.034
    
    [GRAPHIC] [TIFF OMITTED] T1979.035
    
    [GRAPHIC] [TIFF OMITTED] T1979.036
    
    [GRAPHIC] [TIFF OMITTED] T1979.037
    
    [GRAPHIC] [TIFF OMITTED] T1979.038
    
    [GRAPHIC] [TIFF OMITTED] T1979.039
    
    [GRAPHIC] [TIFF OMITTED] T1979.040
    
    [GRAPHIC] [TIFF OMITTED] T1979.041
    
    [GRAPHIC] [TIFF OMITTED] T1979.042
    
    [GRAPHIC] [TIFF OMITTED] T1979.043
    
    [GRAPHIC] [TIFF OMITTED] T1979.044
    
    [GRAPHIC] [TIFF OMITTED] T1979.045
    
    [GRAPHIC] [TIFF OMITTED] T1979.046
    
    [GRAPHIC] [TIFF OMITTED] T1979.047
    
    [GRAPHIC] [TIFF OMITTED] T1979.048
    
    [GRAPHIC] [TIFF OMITTED] T1979.049
    
    [GRAPHIC] [TIFF OMITTED] T1979.050
    
    [GRAPHIC] [TIFF OMITTED] T1979.051
    
    [GRAPHIC] [TIFF OMITTED] T1979.052
    
    [GRAPHIC] [TIFF OMITTED] T1979.053
    
    [GRAPHIC] [TIFF OMITTED] T1979.054
    
    [GRAPHIC] [TIFF OMITTED] T1979.055
    
    [GRAPHIC] [TIFF OMITTED] T1979.056
    
    [GRAPHIC] [TIFF OMITTED] T1979.057
    
    [GRAPHIC] [TIFF OMITTED] T1979.058
    
    [GRAPHIC] [TIFF OMITTED] T1979.059
    
    [GRAPHIC] [TIFF OMITTED] T1979.060
    
    [GRAPHIC] [TIFF OMITTED] T1979.061
    
    [GRAPHIC] [TIFF OMITTED] T1979.062
    
    [GRAPHIC] [TIFF OMITTED] T1979.063
    
    [GRAPHIC] [TIFF OMITTED] T1979.064
    
    [GRAPHIC] [TIFF OMITTED] T1979.065
    
    [GRAPHIC] [TIFF OMITTED] T1979.066
    
    [GRAPHIC] [TIFF OMITTED] T1979.067
    
    [GRAPHIC] [TIFF OMITTED] T1979.068
    
    [GRAPHIC] [TIFF OMITTED] T1979.069
    
    [GRAPHIC] [TIFF OMITTED] T1979.070
    
    [GRAPHIC] [TIFF OMITTED] T1979.071
    
    [GRAPHIC] [TIFF OMITTED] T1979.072
    
    [GRAPHIC] [TIFF OMITTED] T1979.073
    
    [GRAPHIC] [TIFF OMITTED] T1979.074
    
    [GRAPHIC] [TIFF OMITTED] T1979.075
    
    [GRAPHIC] [TIFF OMITTED] T1979.076
    
    [GRAPHIC] [TIFF OMITTED] T1979.077
    
    [GRAPHIC] [TIFF OMITTED] T1979.078
    
    [GRAPHIC] [TIFF OMITTED] T1979.079
    
    [GRAPHIC] [TIFF OMITTED] T1979.080
    
    [GRAPHIC] [TIFF OMITTED] T1979.081
    
    [GRAPHIC] [TIFF OMITTED] T1979.082
    
    [GRAPHIC] [TIFF OMITTED] T1979.083
    
    [GRAPHIC] [TIFF OMITTED] T1979.084
    
    [GRAPHIC] [TIFF OMITTED] T1979.085
    
    [GRAPHIC] [TIFF OMITTED] T1979.086
    
    [GRAPHIC] [TIFF OMITTED] T1979.087
    
    [GRAPHIC] [TIFF OMITTED] T1979.088
    
    [GRAPHIC] [TIFF OMITTED] T1979.089
    
    [GRAPHIC] [TIFF OMITTED] T1979.090
    
    [GRAPHIC] [TIFF OMITTED] T1979.091
    
    [GRAPHIC] [TIFF OMITTED] T1979.092
    
    [GRAPHIC] [TIFF OMITTED] T1979.093
    
    [GRAPHIC] [TIFF OMITTED] T1979.094
    
    [GRAPHIC] [TIFF OMITTED] T1979.095
    
    [GRAPHIC] [TIFF OMITTED] T1979.096
    
    [GRAPHIC] [TIFF OMITTED] T1979.097
    
    [GRAPHIC] [TIFF OMITTED] T1979.098
    
    [GRAPHIC] [TIFF OMITTED] T1979.099
    
    [GRAPHIC] [TIFF OMITTED] T1979.100
    
    [GRAPHIC] [TIFF OMITTED] T1979.101
    
    [GRAPHIC] [TIFF OMITTED] T1979.102
    
    [GRAPHIC] [TIFF OMITTED] T1979.103
    
    [GRAPHIC] [TIFF OMITTED] T1979.104
    
    [GRAPHIC] [TIFF OMITTED] T1979.105
    
    [GRAPHIC] [TIFF OMITTED] T1979.106
    
    [GRAPHIC] [TIFF OMITTED] T1979.107
    
    [GRAPHIC] [TIFF OMITTED] T1979.108
    
    [GRAPHIC] [TIFF OMITTED] T1979.109
    
    [GRAPHIC] [TIFF OMITTED] T1979.110
    
    [GRAPHIC] [TIFF OMITTED] T1979.111
    
    [GRAPHIC] [TIFF OMITTED] T1979.112
    
    [GRAPHIC] [TIFF OMITTED] T1979.113
    
    [GRAPHIC] [TIFF OMITTED] T1979.114
    
    [GRAPHIC] [TIFF OMITTED] T1979.115
    
    [GRAPHIC] [TIFF OMITTED] T1979.116
    
    [GRAPHIC] [TIFF OMITTED] T1979.117
    
    [GRAPHIC] [TIFF OMITTED] T1979.118
    
    [GRAPHIC] [TIFF OMITTED] T1979.119
    
    [GRAPHIC] [TIFF OMITTED] T1979.120
    
    [GRAPHIC] [TIFF OMITTED] T1979.121
    
    [GRAPHIC] [TIFF OMITTED] T1979.130
    
    [GRAPHIC] [TIFF OMITTED] T1979.131
    
    [GRAPHIC] [TIFF OMITTED] T1979.132
    
    [GRAPHIC] [TIFF OMITTED] T1979.133
    
    [GRAPHIC] [TIFF OMITTED] T1979.134
    
    [GRAPHIC] [TIFF OMITTED] T1979.135
    
    [GRAPHIC] [TIFF OMITTED] T1979.136
    
    [GRAPHIC] [TIFF OMITTED] T1979.137
    
    [GRAPHIC] [TIFF OMITTED] T1979.138
    
    [GRAPHIC] [TIFF OMITTED] T1979.139
    
    [GRAPHIC] [TIFF OMITTED] T1979.140
    
    [GRAPHIC] [TIFF OMITTED] T1979.141
    
    [GRAPHIC] [TIFF OMITTED] T1979.142
    
    [GRAPHIC] [TIFF OMITTED] T1979.143
    
    [GRAPHIC] [TIFF OMITTED] T1979.144
    
    [GRAPHIC] [TIFF OMITTED] T1979.145
    
    [GRAPHIC] [TIFF OMITTED] T1979.146
    
    [GRAPHIC] [TIFF OMITTED] T1979.147
    
    [GRAPHIC] [TIFF OMITTED] T1979.148
    
    [GRAPHIC] [TIFF OMITTED] T1979.149
    
    [GRAPHIC] [TIFF OMITTED] T1979.129
    
    [GRAPHIC] [TIFF OMITTED] T1979.151
    
    [GRAPHIC] [TIFF OMITTED] T1979.152
    
    [GRAPHIC] [TIFF OMITTED] T1979.150
    
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
